<html>
<title> - LEGISLATIVE HEARING ON H.R. 4720, THE MEDAL OF HONOR PRIORITY CARE ACT; H.R. 4887, THE EXPANDING CARE FOR VETERANS ACT; H.R. 4977, THE COVER (CREATING OPTIONS FOR VETERANS EXPEDITED RECOVERY ACT); H.R. 5059, THE CLAY HUNT SUICIDE PREVENTION FOR AMERICAN VETERANS ACT; H.R. 5475, TO IMPROVE THE CARE PROVIDED BY VA TO NEWBORN CHILDREN; H.R. 5484, THE TOXIC EXPOSURE RESEARCH ACT; AND H.R. 5686, THE PHYSICIAN AMBASSADORS HELPING VETERANS ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



LEGISLATIVE HEARING ON H.R. 4720, THE MEDAL OF HONOR PRIORITY CARE ACT; 
 H.R. 4887, THE EXPANDING CARE FOR VETERANS ACT; H.R. 4977, THE COVER 
(CREATING OPTIONS FOR VETERANS EXPEDITED RECOVERY ACT); H.R. 5059, THE 
 CLAY HUNT SUICIDE PREVENTION FOR AMERICAN VETERANS ACT; H.R. 5475, TO 
  IMPROVE THE CARE PROVIDED BY VA TO NEWBORN CHILDREN; H.R. 5484, THE 
 TOXIC EXPOSURE RESEARCH ACT; AND H.R. 5686, THE PHYSICIAN AMBASSADORS 
                          HELPING VETERANS ACT

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON HEALTH

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY, NOVEMBER 19, 2014

                               __________

                           Serial No. 113-92

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Available via the World Wide Web: http://www.fdsys.gov
          
                              __________
          
          
                 U.S. GOVERNMENT PUBLISHING OFFICE

96-135                   WASHINGTON : 2015
   __________________________________________________________________________

  For sale by the Superintendent of Documents, U.S. Government Publishing Office
Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; DC area (202)512-1800
         Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001
      
          
          
          
                     COMMITTEE ON VETERANS' AFFAIRS


                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

                         SUBCOMMITTEE ON HEALTH

                    DAN BENISHEK, Michigan, Chairman

DAVID P. ROE, Tennessee              JULIA BROWNLEY, California, 
JEFF DENHAM, California                  Ranking Member
TIM HUELSKAMP, Kansas                CORRINE BROWN, Florida
BRAD R. WENSTRUP, Ohio               RAUL RUIZ, California
JACKIE WALORSKI, Indiana             GLORIA NEGRETE McLEOD, California
DAVID JOLLY, Florida                 ANN M. KUSTER, New Hampshire

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                              ----------                              

                      Wednesday, November 19, 2014

                                                                   Page

Legislative Hearing on H.R. 4720, The Medal of Honor Priority 
  Care Act; H.R. 4887, The Expanding Care for Veterans Act; H.R. 
  4977, The Cover (Creating Options for Veterans Expedited 
  Recovery Act); H.R. 5059, The Clay Hunt Suicide Prevention for 
  American Veterans Act; H.R. 5475, To Improve The Care Provided 
  By VA to Newborn Children; H.R. 5484, The Toxic Exposure 
  Research Act; and H.R. 5686, The Physician Ambassadors Helping 
  Veterans Act...................................................     1

                           OPENING STATEMENTS

Hon. Dan Benishek, Chairman......................................     1
Hon. Julia Brownley, Ranking Member..............................     3

                               WITNESSES

The Hon. Tim Walberg, U.S. House of Representatives, 7th 
  District, MI...................................................     4
    Prepared Statement...........................................    36

The Hon. Gus Bilirakis U.S. House of Representatives, 12th 
  District, FL...................................................     6
    Prepared Statement...........................................    37

The Hon. Tim Walz, U.S. House of Representatives, 1st District, 
  MN.............................................................     7
    Prepared Statement...........................................    38

The Hon. Doug Collins, U.S. House of Representatives, 9th 
  District, GA...................................................     9
    Prepared Statement...........................................    39

The Hon. John Culberson, U.S. House of Representatives, 7th 
  District, TX...................................................    11
    Prepared Statement...........................................    40

Christopher Neiweem, Legislative Associate, Iraq and Afghanistan 
  Veterans of America............................................    12
    Prepared Statement...........................................    41

Brad Adams, Staff Attorney, Swords to Plowshares.................    14
    Prepared Statement...........................................    46

Aleks Morosky, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States,.................    16
    Prepared Statement...........................................    59

John Rowan, National President, Vietnam Veterans of America......    18
    Prepared Statement by Richard Weidman........................    65

Rajiv Jain M.D., Assistant Deputy Under Secretary for Health for 
  Patient Care Services, VHA, U.S. Department of Veterans Affairs    28
    Prepared Statement...........................................    78

    Accompanied by:

        Jennifer Gray, Esq. Staff Attorney, Office of General 
            Counsel, U.S. Department of Veterans Affairs

                             FOR THE RECORD

The Hon. Tammy Duckworth, U.S. House of Representatives, 8th 
  District, IL...................................................   105
American Legion..................................................   106
AMVETS...........................................................   113
CNS Response.....................................................   122
Disabled American Veterans.......................................   127
Paralyzed Veterans of America....................................   134
Wounded Warrior Project..........................................   140

 
LEGISLATIVE HEARING ON H.R. 4720, THE MEDAL OF HONOR PRIORITY CARE ACT; 
 H.R. 4887, THE EXPANDING CARE FOR VETERANS ACT; H.R. 4977, THE COVER 
(CREATING OPTIONS FOR VETERANS EXPEDITED RECOVERY ACT); H.R. 5059, THE 
 CLAY HUNT SUICIDE PREVENTION FOR AMERICAN VETERANS ACT; H.R. 5475, TO 
  IMPROVE THE CARE PROVIDED BY VA TO NEWBORN CHILDREN; H.R. 5484, THE 
 TOXIC EXPOSURE RESEARCH ACT; AND H.R. 5686, THE PHYSICIAN AMBASSADORS 
                          HELPING VETERANS ACT

                              ----------                              


                      Wednesday, November 19, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                    Subcommittee on Health,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
Room 334, Cannon House Office Building, Hon. Dan Benishek 
[chairman of the subcommittee] presiding.
    Present: Representatives Benishek, Roe, Huelskamp, 
Wenstrup, Walorski, Brownley, Brown, and Kuster.
    Also present: Representatives Bilirakis and Walz.

           OPENING STATEMENT OF CHAIRMAN DAN BENISHEK

    Dr. Benishek. The subcommittee will come to order.
    Before we begin I would like to ask unanimous consent for 
my friends, colleagues, and members of the Full Committee, Gus 
Bilirakis and Tim Walz from Minnesota to sit on the dais and 
participate in today's proceedings. Without objection, so 
ordered.
    Good afternoon and thank you all for joining us today to 
discuss seven important legislative proposals that would impact 
the provision of healthcare to our Nation's veterans through 
the Department of Veterans Affairs.
    The seven bills on our agenda today are H.R. 4720, the 
Medal of Honor Priority Care Act, and H.R. 4887 the Expanding 
Care for Veterans Act, H.R. 4977 the Creating Options for 
Veterans Expedited Recovery or the COVER Act, H.R. 5059 the 
Clay Hunt Suicide Prevention for American Veterans Act or SAV 
Act, and H.R. 5475 to improve the care provided by VA to 
newborn children, and 5484 the Toxic Exposure Research Act of 
2014, and H.R. 5686 the Physician Ambassadors Helping Veterans 
Act.
    From increasing care available to newborn children of women 
veterans, to expanding and improving mental health treatment 
options, to providing priority access to Medal of Honor 
recipients, these seven measures address a wide range of 
critical issues facing our veterans, their families and the VA 
healthcare center.
    I am proud to join Chairman Miller and Congressman Walz and 
Congresswoman Duckworth in cosponsoring H.R. 5059 the Clay Hunt 
SAV Act. With an estimated 22 veterans each day committing 
suicide, it has never been more important for us to take 
aggressive action to ensure that VA and DoD's mental health and 
suicide prevention programs are operating seamlessly, at the 
fullest strength to care for servicemembers and veterans 
struggling with mental illness and thoughts of suicide.
    I am also proud to sponsor H.R. 5484 the Toxic Exposure 
Research Act of 2014, which I introduced to improve the 
research and treatment available to veterans and their family 
members who have experienced negative affects of toxic 
exposure.
    H.R. 5484 would direct VA to select a medical center to 
serve as a national center for research on diagnosis and 
treatment of health conditions of descendents of Veterans 
exposed to toxic substances while serving as members of the 
Armed Forces.
    The National Research Center will be required to employ at 
least one licensed clinical social worker to coordinate access 
to care for impacted individuals to VA, as well as appropriate 
Federal, State, local, social and healthcare programs, and to 
provide case management services.
    Secondly, H.R. 5484 would direct VA to establish an 
advisory board to advise the National Research Center to 
determine which health conditions and the descendants of 
individuals who were exposed to toxic substances while serving 
in the Armed Forces result from such exposure, for purposes of 
determining those descendants eligibility for VA medical care, 
and A study and evaluate claims of service-related exposure to 
toxic substances by current and former members of the armed 
services.
    H.R. 5484 will also authorize DoD to declassify documents, 
other than those that would materially and immediately threaten 
national security related to any known incident in which not 
less than 100 members of the Armed Forces were exposed to a 
toxic substance that resulted in at least one case of 
disability.
    Finally, it would direct VA, DoD and the Department of 
Health and Human Services to jointly conduct a National 
outreach and education campaign to communicate information on 
toxic exposure incidents, resulting health conditions, and 
potential long-term impacts.
    When a service member volunteers to serve our Nation in the 
United States Military, it is with the full understanding that 
they may be exposed to high-pressure situations and the strains 
of combat. But not many are aware that their service may also 
expose them to harmful chemical toxins they have the ability to 
impact not only their health, potentially the health of their 
children and grandchildren as well.
    Wounds that result from exposure from toxic chemicals can 
have lifelong and generational affects, the impacts of which we 
do not yet fully understand.
    Therefore, it is imperative that we take every available 
step to recognize, research and treat toxic exposure issues 
that arise during our veterans military service and thoroughly 
evaluate the long-term affects this exposure can have on a 
veteran and on his or her family.
    H.R. 5484 is not perfect and I recognize that some of 
today's witnesses have particular concerns about a provision in 
the bill that would allow the advisory board to study and 
evaluate claims of service connected exposure. I understand 
those concerns and appreciate those who have brought them to my 
attention.
    I look forward to working closely with the VA, VSOs and 
other stakeholders in the coming days to make any amendments 
that may be necessary to clarify, and strengthen the intent of 
that provision and others on today's agenda.
    Together we will ensure that these bills and all 
legislation advanced through this subcommittee are appropriate, 
effective, meaningful and most importantly contribute to the 
fulfillment of the promise made by President Lincoln to care 
for our Nation's servicemembers, veterans and military 
families.
    Thank you to all of our witnesses for being here this 
afternoon.
    With that, I now yield to Ranking Member Brownley for any 
opening statement she may have.

    [The prepared statement of Chairman Dan Benishek appears in 
the Appendix]

       OPENING STATEMENT OF RANKING MEMBER JULIA BROWNLEY

    Ms. Brownley. Thank you, Mr. Chairman and I appreciate you 
holding this legislative hearing today.
    As you know, the purpose of today's hearing is to explore 
the policy implications of seven bills before us, which cover a 
wide range of important topics that would expand and enhance 
VA's healthcare programs and services for our Nation's 
veterans.
    I look forward to hearing the views from our panelists and 
appreciate the hard work that their testimony demonstrates. 
While I am disappointed in the Department for not furnishing 
views on my bill, I understand that the VA is prepared to 
answer questions on the bill's provisions. We hold these 
legislative hearings to ensure that the committee is as fully 
informed as possible on important veterans' health issues. We 
rely on this input to make sound and well-educated decisions on 
whether to forward a bill from this subcommittee.
    Among the seven bills on the agenda today the subcommittee 
is considering my bill, H.R. 4887, the Expanding Care for 
Veterans Act, which would expand complementary and alternative 
medicine and mental healthcare options for our Nation's 
veterans.
    As ranking member of the House Veterans' Affairs 
Subcommittee on Health, I believe that we must find more and 
better ways to provide our veterans with the healthcare they 
need.
    There are many organizations throughout the country that 
are achieving very positive results using complementary and 
alternative medicine to treat mental health issues. My bill 
would require the VA to do a better job of evaluating what 
works. And when it does, find a way to provide these therapies 
to our veterans who are in need.
    Specifically, the Expanding Care for Veterans Act would 
expand research and education on and delivery of complementary 
and alternative medicine to veterans. It would establish a 
program on integration of complementary and alternative 
medicine within the Department of Veterans Affairs medical 
centers. It would steady the barriers encountered by veterans 
and receiving, and administrators and clinicians in providing 
complementary and alternative medicine services furnished by 
the Department of Veterans Affairs, and establish a program on 
the use of wellness programs as a complementary approach to 
mental healthcare for veterans and family members of veterans.
    Complementary and alternative medicine is intended to 
enhance, reinforce and sometimes replace traditional mainstream 
therapies. For instance, in my congressional district Reins of 
Hope assisted psychotherapy program helps to improve mental 
health, self esteem, communication skills and interpersonal 
relationships.
    This subcommittee held a hearing in February in my District 
and I was very pleased that the Reins of Hope was invited to 
testify because of the successes highlighted at that hearing 
and through subsequent VA contact with the program, VA has 
decided to expand services with the Reins of Hope.
    Throughout the 113th Congress the VA Committee has held 
hearings at which we have heard from veterans about the need to 
expand, complementary and alternative medicine in order to 
improve care for our veterans, and reduce wait times for mental 
health visits.
    I am hopeful that my bill can move forward and appreciate 
the support that many of the VSOs have shown for my bill.
    Thank you, Mr. Chairman, and I yield back.

    [The prepared statement of Hon. Julia Brownley appears in 
the Appendix]

    Dr. Benishek. I am honored to be joined today by several of 
my colleagues on our first panel.
    Joining us to discuss legislation they have sponsored is 
Representative Tim Walberg from the 7th District of Michigan, 
representative and committee member Gus Bilirakis from the 12th 
District of Florida, representative and committee member Tim 
Walz of the 1st District of Minnesota, Representative Doug 
Collins from the 9th District of Georgia, and Representative 
John Culberson from the 7th District of Texas. Thank you all 
for being here this afternoon.
    Representative Walberg, we will begin with you, please 
proceed with your testimony.

                 STATEMENT OF HON. TIM WALBERG

    Mr. Walberg. Chairman Benishek, Ranking Member Brownley and 
members of the subcommittee, I thank you for the opportunity to 
speak this afternoon in support of my legislation H.R. 4720, 
the Medal of Honor Priority Care Act of 2014. I also thank you 
for the good work that you and all of the subcommittee here 
does for the benefit of our veterans.
    As the members of this committee are well aware, the 
Congressional Medal of Honor is the highest award for valor 
which can be bestowed upon an individual serving in the United 
States Armed Forces, and is awarded to soldiers who have 
displayed conspicuous gallantry and intrepidity at the risk of 
life above and beyond the call of duty.
    The Medal of Honor is a distinguished award given to a 
select few. Less than 3,500 have been awarded, and of those 
only 79 are living recipients. When one looks at the recent 
major conflicts in Iraq and Afghanistan, only 16 have been 
awarded.
    My State of Michigan is honored to have two living 
recipients of this award, Corporal Duane E. Dewey and Private 
First Class Robert E. Simanek, both received the decoration for 
their heroic action in the Korean War. And hearing of their 
harrowing stories of bravery has reminded me of the sacrifice 
American soldiers are willing to make to protect their comrades 
and their country.
    Medal of Honor recipients deserve our utmost appreciation 
and I believe a small portion of our servicemembers who have 
gone above and beyond the call of duty and have earned the 
highest honor in our Nation's Armed Forces, have earned the 
right to be placed in the top priority group to receive their 
healthcare benefits.
    All veterans deserve access to the healthcare they have 
earned. But as you all know, the VA uses a priority system to 
determine eligibility for these healthcare services. Some of 
the factors that will affect the soldiers priority group 
ranking are whether the soldier has a service connected 
disability, whether they are former prisoners of war, the time 
and place of service, as well as income level.
    Currently, Medal of Honor recipients are in priority group 
3. And as the VA Web site itself points out, veterans who meet 
the qualifications of priority group 1 receive expedited 
service. Moving Medal of Honor recipients to priority group 1 
will allow this small group of outstanding individuals who have 
received expedited--to receive expedited care as well as other 
benefits, such as medication without copayments.
    I would be remiss in not pointing out that the idea to 
initially look into this legislation came from a veteran who 
lives in my District and works with the veteran community. This 
bill would not affect a large population of veterans, but I 
believe we have a duty to ensure these veterans have access 
through the VA when they need it.
    I am proud to have support of 13 of my colleagues from both 
sides of the aisle, as well as support from the VFW, Vietnam 
Veterans of America, IAVA, and the American Legion and AMVETS.
    I thank the Chair for permitting me to appear before the 
subcommittee today and ask for your support, thank you.

    [The prepared statement of Mr. Tim Walberg appears in the 
Appendix]

    Dr. Benishek. Thank you, Mr. Walberg.
    Mr. Bilirakis. please go ahead.

                STATEMENT OF HON. GUS BILIRAKIS

    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it 
very much.
    Chairman Benishek, Ranking Member Brownley and Members of 
the Health Subcommittee. Thank you for holding this very 
important hearing and providing me an opportunity to testify on 
my bill.
    The importance of exploring complementary alternative 
treatments for veterans with mental health concerns cannot be 
understated. As we all know, the cost of wars and the price for 
freedom are paid for through the valor of brave men and women. 
These individuals selflessly put themselves in harms way for 
the freedoms we enjoy on a daily basis.
    Statistics show that 20 percent, around 1 in 5 veterans who 
serve in Iraq and Afghanistan have been diagnosed with post 
traumatic stress. We must responsibly ask our questions. We 
must ask ourselves, are we doing enough when it comes to 
addressing mental health in our veterans population? I don't 
think so.
    Recent data has shown that everyday in this country an 
estimated 22 veterans take their own lives, very sad. It is sad 
and alarming that more servicemembers have died from suicide 
than overseas in Iraq and Afghanistan. Many of these tragic 
suicides are the result of depression, homelessness and a lack 
of available resources to assist in their transition into 
civilian life.
    My bill H.R. 4977 the Creating Options for Veterans 
Expedited Recovery Act, COVER we call it, will help remedy this 
tragic problem, and provide additional therapies to our 
Nation's wounded heroes.
    The COVER Act will establish a commission to examine the 
Department of Veterans Affairs current evidence-based therapy 
treatment model, for treating mental illnesses among veterans.
    Additionally, it will analyze the potential benefits for 
incorporating complementary alternative treatments available 
within our communities. Under the COVER Act the commission will 
conduct a patient-centered survey within each veterans 
integrated service network.
    The survey will examine the preferences and experiences of 
veterans with regard to their interactions with the Department 
of Veterans Affairs. Instead of presuming to know what is best 
for Veterans, we should simply ask them, don't you think? We 
can work with them on finding the right solution that best fits 
their unique needs.
    The scope of the survey will include as follows the 
experience of a veteran when seeking mental or medical 
assistance within the Department of Veterans Affairs, the 
experience of veterans with non-VA medical facilities, veterans 
experience with healthcare professionals treating them for 
mental health illnesses, the preferences of a veteran on 
available treatments for mental health and which they believe 
to be the most effective, the prevalence of prescribing 
prescription drugs within the VA as remedies for treating 
mental health illnesses, and outreach efforts by the VA 
Secretary on available benefits and treatments.
    Additionally, the commission will be tasked with examining 
the available research on complementary alternative treatments 
for mental health. They will also identify what benefits could 
be attained with the inclusion of such treatments for our 
veterans. Some of these alternative therapies include among 
others; accelerated resolution therapy, training and care for 
service dogs, music therapy, yoga, acupuncture therapy, 
mediation and outdoor sports therapy.
    Finally the commission will study the potential increase 
and benefit claims for mental health issues for veterans 
returning from Operation Iraqi Freedom, Operation Enduring 
Freedom, and Operation New Dawn. The VA must have the necessary 
resources and infrastructure to handle an increase in veterans 
you either, earn benefits to address the mental and physical 
ailments.
    Once the commission has successfully completed their 
duties, a final report will be issued and made available. The 
commission outlining its recommendations and findings based on 
their analysis of the patient centered survey, alternative 
treatments and evidence-based therapies.
    The commission will also be responsible for creating a plan 
implementing those findings in a feasible, timely and cost 
effective manner. I am happy to have the support from the 
veterans service organization, particularly the Iraq and 
Afghanistan Veterans of America, the American Legion, and Vets 
First who provided letters of support prior to this hearing. I 
am almost finished, Mr. Chairman.
    With the collaboration of our Nation's greatest heroes, 
Congress and the VA, we can increase access to quality care for 
veterans across the country and help better meet their needs 
when asked--when seeking care.
    Thanks again for allowing me to testify on behalf of the 
COVER Act today and I urge all of my colleagues to support this 
important piece of legislation and show our veterans, our true 
American heroes, with action and not just promises that we have 
them covered.
    Thank you so much and I yield back.

    [The prepared statement of Mr. Bilirakis appears in the 
Appendix]

    Dr. Benishek. Thank you.
    Mr. Walz, you have five minutes for your statement.

                   STATEMENT OF HON. TIM WALZ

    Mr. Walz. Yes I do thank you very much.
    Thank you Chairman Benishek and Ranking Member Brownley, 
and thanks for your leadership and dedication to our Nation's 
heroes.
    I am grateful for the opportunity both to have served on 
this committee for 8 years and what appears to be my last 
hearing. I am honored to tell you about an important piece of 
legislation to help rid our community of veteran suicide.
    H.R. 5059 is the Clay Hunt Suicide Prevention for American 
Veterans Act. It is an example of how we get things right on 
Capitol Hill. The legislation is named in honor of Iraq and 
Afghanistan war veteran suicide prevention advocate and my 
friend Clay Hunt.
    Clay epitomized what it meant to live a life of service, 
both as a Marine and as a civilian. He helped countless 
veterans overcome their demons, but tragically took his own 
life in March of 2011. The legacy left behind however will live 
on for generations. Clay's mom, Susan, is on the Hill today and 
if you get a chance, you may see her around. Make sure you 
thank her for what their family has given.
    The bill you see before you was the result of strong 
partnerships with our veteran service organization, strong 
bipartisan effort here in Congress and relentless shown by 
Clay's parents to get this thing done. This bill is what you 
get when you have folks sitting around a table, trusting one 
another and working to get it right for our Nation's veterans.
    I want to extend a special thank you to two Air Force 
veterans for helping to get this done. Thanks should go out to 
Ms. Christine Hill of Chairman Miller's staff and Tony DeMarino 
from Ms. Duckworth's staff for their incredible work.
    Our premise for this bill was simple, suicide occurs 
because many veterans return to their community and then 
disconnect from it. So we wanted to create a bill that would 
get the communities involved and coordinated. We also knew it 
would be important to increase the capacity and efficiency of 
the VA care to deal with over a million veterans returning from 
war. Specifically, this bill establishes a pure support and 
community outreach pilot program to assist transitioning 
servicemembers with accessing VA mental health services. It 
requires the VA to create a one-stop interactive Web site to 
serve as a centralized source of information regarding all 
mental health service for veterans.
    Three, it addresses the shortage of mental healthcare 
professionals by authorizing the VA to conduct student loan 
repayment pilot program, aimed at recruiting and retaining 
psychiatrists.
    It requires the DoD and the National Guard to review the 
staffing requirements for directors of psychological health in 
each State. And it requires a yearly evaluation conducted by a 
third party, of all mental healthcare, and suicide prevention 
practices programs at DoD and VA find out what is working and 
what is not working, and make recommendations for getting rid 
of those that don't and improving those that do.
    It establishes a strategic relationship between the VA and 
the National Guard to facilitate greater continuity of care 
between the National Guard and the VA.
    And finally, it authorizes the Government Accountability 
Office report on the transition of care from PTS and TBI 
between the DoD and VA. One veteran lost to suicide is too 
many. With many of our warriors returning from war, all too 
often our heroes return only to face a war of their own.
    While there is no bill that will completely end veteran 
suicide, this comprehensive bipartisan measure is a step in the 
right direction. I am proud to have worked with Chairman Miller 
and his staff, Representative Duckworth, a combat veteran 
herself, Iraq and Afghanistan Veterans of America, and the VFW 
introduced this bipartisan piece of legislation.
    I also want to thank Senator McCain for taking up the 
Senate companion and making sure that this is on a track to end 
up on the President's desk. I urge my colleagues to support 
this measure so we can pass it quickly into law and start 
addressing an issue that all of us know happens all too often.
    And with that, Mr. Benishek, I yield back and thank you.

    [The prepared statement of Mr. Tim Walz appears in the 
Appendix]

    Dr. Benishek. Thank you, Mr. Walz.
    Mr. Collins, please go ahead.

                 STATEMENT OF HON. DOUG COLLINS

    Mr. Collins. Thank you, Mr. Chairman and Ranking Member 
Brownley, and the distinguished members of the subcommittee, 
for my opportunity to testify on my piece of legislation, H.R. 
5475 to amend title 38 of the United States Code to improve the 
care provided by the Secretary of Veterans Affairs to newborn 
babies. And just also as a current active Air Force reservist, 
I appreciate this committee and also the words spoken to those 
who come back as one who has come back from Iraq as well and 
the need for that I appreciate that very much.
    The model of the Veterans Administration basically comes 
straight from Abraham Lincoln's second inaugural. And he got 
the idea straight from scripture. So the challenge for us is to 
care for him who shall have borne the battle and his widow and 
for his orphan isn't a new one.
    Since September 11th, 2001 more than a quarter of a million 
women have answered the call to serve, they have faced 
terrorism in the deserts and the mountains of Iraq and 
Afghanistan, so in the 21st century we must also consider she 
who have borne the battle, when she returns, what of her 
children?
    The finest military in the world is powered by men and 
women in their physical prime. The young women who decide to 
serve this country in the Armed Forces aren't immune from the 
same questions that all young women face about whether they 
pursue a career, a family or both. Yet they are offered a 
healthcare system that for so many years has been designed to 
serve men.
    With an increasing number of female veterans, the VA must 
expand its care and services to meet their needs. Maternity 
care tops that list of needs. And I have offered one way that 
we can help. In 2010 Congress passed and the President signed 
the Caregivers and Veterans Omnibus Health Services Act 2010, 
to provide short-term newborn care for women veterans who 
receive their maternity care through the VA. It was signed into 
law on May 5th, 2010 and this legislation authorized up to 7 
days for newborn care.
    On January 27th, 2012 the VA published a regulation 
officially amending VA's medical benefits package to include up 
to 7 days of medical care for newborns delivered by female 
veterans who were receiving VA maternity care benefits. The 
rule which became effective December 19th applied retroactively 
to newborn care provided to eligible women that on or after May 
5th of 2011.
    Since this 7 day authorization was enacted by Congress in 
2010, we have learned more about the unique challenges facing 
female veterans and the changing trends and these veterans 
seeking maternity and newborn care from the VA. According to 
the study published in the women's health issue journal this 
year from 2008 to 2012 the overall delivery rate by female 
veterans utilizing VA maternity benefits increased by 44 
percent, and a majority of the women using VA maternity 
benefits had service connected disability.
    Unless Congress extends the authorization for newborn care 
coverage provided by the VA, these veterans will face difficult 
financial decisions and complexity in navigating insurance 
options at the same time their newborn is fighting for their 
life.
    That is why I introduced H.R. 5475. This legislation 
extends the authorization of care from 7 to 14 days, and 
provides for an annual report on the number of newborn children 
who received such services during the fiscal year.
    Improved data on trends and female veterans utilizing 
newborn care will help Congress and the VA better meet the 
needs in years to come. You see this is also a little personal 
for me. I know what it is like to be the parent of a little 
baby who needed intensive medical care for an extended period 
the moment she was born.
    It is my hope that any new mother who has given selflessly 
to her country wouldn't have to worry about Congress standing 
in her way as she tries to give selflessly to her our own 
child.
    Our goal should always be to provide the mother with 
prenatal care she needs to give the newborn the best chance of 
healthy delivery with no postnatal complications. There are 
significant needs and challenges female veterans face when 
returning home from the battlefield, from homelessness to 
sexual and physical abuse, not to mental health conditions such 
as post traumatic stress disorder.
    This legislation won't solve those challenges but 5475 will 
give a little peace of mind knowing that a newborn will get 
some extra help from the VA and Congress and that we are 
committed to her and her family.
    In a focus group conducted, one Marine said, I essentially 
say that I gave my reproductive years to the Marine Corps and 
those are the years you can serve. You know you do sacrifice 
and you say, well, mission first before family mission. Type of 
thing and the more I think about it, you know, the VA probably 
should address that part of womanhood and have that 
understanding.
    There are a multitude of ways the VA must adapt to better 
meet the needs of female veterans. By increasing the 
authorization in care, we can ensure Congress is not standing 
in the way of VA seeking to do just that.
    Absent legislative change, the VA cannot provide more than 
7 days care. I believe this is unacceptable. In closing, we owe 
it to our female veterans to expand the healthcare services 
that the VA can provide them and their children. Female 
veterans face unique challenges and barriers, including very 
limited newborn care coverage.
    While the majority of female veterans who receive maternity 
care from the VA are able to return home with newborns within 
current 7 days time frame, some cannot due to newborn 
complications. It is these veterans and children that need our 
help today. And expanding this coverage will give them a little 
more peace and security.
    Mr. Chairman and Ranking Member, I do appreciate the 
opportunity to talk about this and I thank you for the 
opportunity to discuss this legislation.
    I yield back.

    [The prepared statement of Mr. Doug Collins appears in the 
Appendix]

    Dr. Benishek. Thank you, Mr. Collins.
    Mr. Culberson, please proceed with your statement.

                STATEMENT OF HON. JOHN CULBERSON

    Mr. Culberson. Mr. Chairman, thank you. I deeply appreciate 
the time today, Chairman Benishek, Ranking Member Brownley, and 
I want to thank the members of the subcommittee; you have 
coauthored this legislation with me that I present to you 
today.
    I want to thank in particular my colleagues from Texas, 
Representative O'Rourke and Representative Walz, thank you for 
coauthoring this with me. Representative Huelskamp has signed 
on with me, as well as Representative Ann Kirkpatrick.
    It is a straightforward, very simple, commonsense idea. 
When I was visiting the Texas Medical Center back in August, my 
district just abuts the medical center. It is the largest 
collection of hospitals in the United States. 155,000 people 
come in and out of the Texas Medical Center every day. And a 
radiologist whom I was visiting with that day, Dr. Beth 
Edeiken-Monroe told me that she repeatedly tried to volunteer 
her time at the VA hospital and they turned her away. And I 
just couldn't believe it.
    In talking to her and other doctors, all of a sudden, I 
started getting doctors from up and down the hallway coming to 
talk to me when they found out not only that I was a 
Congressman, but I have the privilege of chairing the VA 
Military Construction Appropriations Subcommittee. So this is--
you know, helping our veterans is near and dear to my heart as 
it is to you all. And I was just dumbfounded, every single 
doctor I talked to and nurse, I started getting these stories 
from all over the medical center that they had made repeated 
efforts to go down and volunteer at the VA hospital because 
they recognized there was a shortage of help for our veterans 
that they had heard about the waiting lists, and they were 
concerned. And they didn't want any veteran to wait any longer 
than absolutely necessary, they wanted to get them in as 
quickly as possible to get care.
    And so they were willing to help for free and the VA turned 
them away, said, no, it is too complicated, we have got this 
hurdle and that hurdle you have to jump through, and we have 
this problem and that problem and turned them away.
    So I frankly was just outraged and concerned. And this very 
straightforward, simple piece of legislation is designed to 
make it easy to compel the VA to move rapidly to get any doctor 
who is licensed, doesn't have a disciplinary problem with their 
State licensing board, to get them in the door of the hospital 
right away and help see our Veterans. Make sure they get the 
care that they need.
    It is designed also to address one the concerns the VA had. 
They said well, if we allow doctors to volunteer, what if they 
only they volunteer only a few hours a year. So there is a 40-
hour minimum in here. The doctors of course want to make sure 
they provided the same medical liability protection that other 
doctors have under the Tort Claims Act. The VA already has a 
procedure for that. So any doctor who comes in and volunteers--
this would apply not only to doctors, but healthcare 
professionals, nurses or other healthcare professionals that 
want to participate. They are given the same tort claims 
protection that other VA physicians are given.
    So it is a very straightforward, simple idea. I talked to 
Secretary Bob about this yesterday. He supports this 
legislation and would like to see it enacted. I have the 
support also of the Texas Medical Association, believes this is 
a very straightforward and simple idea. And that is why I 
present it to you today.
    I sincerely want to thank Dr. Beth Edeiken-Monroe, the 
folks at the Texas Medical Center, particularly MD Anderson 
Hospital which has done such extraordinary work in eliminating 
cancer, working to make it a treatable disease. And they are 
just a wonderful group of people and they just want to help.
    To think of a time when veterans are--it is just appalling 
and unacceptable that our veterans have to wait to get in to 
see a doctor at the VA. We just want to make sure that we have 
all hands on deck to help our men and women in uniform get the 
medical treatment that they deserve, that they have earned, and 
that is all this legislation does.
    And I would recommend it to your favorable consideration.
    Thank you very much.

    [The prepared statement of Mr. John Culberson appears in 
Appendix]

    Dr. Benishek. Thank you, Mr. Culberson.
    Unfortunately there is a vote call on the floor so we are 
going to have to--not adjourn, but recess the subcommittee for 
a short time. Hopefully we will be back by about 3:05.
    So all the members are welcome to come back after. We are 
going to resume, but we will do the rest of our panels after 
that.
    So we are in recess for the time being. Thank you.
    [Recess.]
    Dr. Benishek. I call to order the Veterans' Affairs 
subcommittee on Health hearing for the VA committee.
    We missed a couple of people unfortunately because the vote 
was right in the middle of our hearing, which is always 
frustrating, but we will just begin with the second panel.
    Joining us on the second panel is Christopher Neiweem, the 
legislative associate for the Iraq and Afghanistan Veterans of 
America, Brad Adams, staff attorney for Swords to Plowshares, 
Aleks Morosky, the deputy director of National Legislative 
Service for the Veterans of Foreign Wars of United States and 
John Rowan, the National president for the Vietnam Veterans for 
America.
    Thank you all for being here this afternoon and for your 
hard work and advocacy on behalf of our veterans. I appreciate 
you being here to present your views of your members.
    Well, we will begin with Mr. Neiweem.
    Mr. Neiweem. you have 5 minutes.

                STATEMENT OF CHRISTOPHER NEIWEEM

    Mr. Neiweem. Chairman Benishek, Ranking Member Brownley and 
distinguished members of the subcommittee, on behalf of Iraq 
and Afghanistan Veterans of America, we would like to extend 
our gratitude for the opportunity to share with you our 
important views and recommendations on the legislation under 
consideration today.
    IAVA supports each bill on the docket of this afternoon's 
hearing. However, we would like to use our time for remarks to 
focus on H.R. 5059 the Clay Hunt Suicide Prevention for 
American Veterans Act or Clay Hunt SAV Act.
    This comprehensive piece of legislation is a very important 
first step to addressing and beginning to curtail the tragic 
statistic reported by VA that 22 veterans are lost by suicide 
each day. Combatting veteran suicide is IAVA's top priority in 
2014. In IAVA's 2014 member policy survey, over 47 percent of 
our respondents told us they knew a veteran who served in Iraq 
or Afghanistan who had attempted suicide and over 52 percent 
knew two or more veterans that had been lost to suicide.
    The SAV Act has many key provisions, and I will briefly 
speak to some of them now. Firstly, it requires independent 
evaluations of all DoD and VA mental health programs and 
suicide prevention programs. Simply put, these independent 
evaluations, will examine which programs are working and which 
programs may not be effective and need to be curtailed, 
reformulated or eliminated.
    Secondly, the bill instructs the VA to launch a new Web 
site to serve as a centralized resource to provide veterans 
with information regarding all of the mental health resources 
available to them and how to access those services. This 
includes a listing of where to find those services and a 
listing of key staff contacts that are available to field 
questions and address concerns.
    Further, the formal strategic relationships the bill 
requires VA and the DoD to enter into with the Chief and the 
National Guard Bureau and regional state commands will assist 
in referral of mental health resources to Reserve and Guard 
troops with service-connected disabilities.
    Too often Reserve and Guard forces return home from 
deployment without a firm pipeline of support to assist with 
their reintegration into their community. Additionally, the SAV 
Act aims to bolster the VA's psychiatric workforce through a 3-
year pilot program that provides student loan relief for 
eligible psychiatrists that want to serve veterans at the VA. 
This incentive would put VA on par with other Federal entities 
that already offer student loan repayment incentives, and is a 
great opportunity to promote their recruitment of talented, 
dedicated, young professionals in the VA's ranks.
    The last section of the bill that I would like to focus 
these remarks on is the Community Outreach Provision which 
creates a pilot program that will marshal government and 
nonprofit resources collectively. This will create trained 
veteran peer networks that will assist fellow veterans in their 
transition after service.
    Additionally, the program will include the participation of 
community organizations, educational institutions and State and 
local governments. The SAV Act will improve policy in many 
categories to address the issue of veteran suicide.
    Mr. Chairman, in VA's written remarks they state they 
support the intent of the Clay Hunt SAV Act, but want to slow 
down the bill's progress and help recraft certain portions of 
the bill. The Department has known for months that this bill 
would move forward in either November or December, yet it 
failed to raise one objection until now, the very last minute. 
In fact, just yesterday, Clay Hunt's mother, Susan, met with VA 
Secretary, Bob McDonald, who informed her that he absolutely 
supports the bill.
    While quick improvements at a markup are acceptable, we do 
not want to see forward progress on the Clay Hunt SAV Act 
slowed because the Department wants to move at a glacierly pace 
on this bill. The time to move forward, Mr. Chairman, in our 
view is now, so we can get this to the floor and get it passed 
before we all go enjoy the holidays, that unfortunately with 
this statistic we know 22 veterans today we will lose to 
suicide and will not move forward to enjoy the holidays as we 
will.
    Mr. Chairman, we value the VA again. I appreciate the 
opportunity to offer our views on these important pieces of 
legislation. I look forward to continuing to work with each one 
of you and your staffs to improve the lives of Iraq and 
Afghanistan veterans and their families.
    I look forward--I appreciate your time and attention and I 
look forward to any questions you have of me.
    Thank you.

    [The prepared statement of Mr. Neiweem appears in the 
Appendix]

    Dr. Benishek. Thank you for your testimony. And I certainly 
agree with you about the glacier-like attitude there.
    Mr. Adams, you may begin your statement.

                    STATEMENT OF BRAD ADAMS

    Mr. Adams. Chairman Benishek, Ranking Member Brownley and 
members of the subcommittee, thank you for inviting me to speak 
today.
    Thank you also to the sponsors and cosponsors of the Clay 
Hunt SAV Act for pursuing this important issue.
    My name is Bradford Adams, I am an Army Veteran. I served 
in Afghanistan. I am now an attorney at a veterans service 
organization called Swords to Plowshares.
    Swords to Plowshares has been providing direct services to 
the veteran community in San Francisco for 40 years, including 
long work with the homeless veterans population and veterans 
struggling with mental illness. I work with veterans who are at 
risk of suicide, who have attempted suicide, and unfortunately 
sometimes I work with veterans who complete suicide despite our 
best efforts.
    I want to discuss the specific provision of the Clay Hunt 
SAV Act and how it can be made stronger. Section 3 addresses an 
important problem. The problem is that there are a large number 
of at-risk veterans who are shut out of VA care. This happens 
because they have been discharged for some kind of misconduct. 
And when servicemembers are discharged for misconduct, the VA 
has the authority to deny them eligibility for VA services if 
the VA feels that their misconduct was so severe that it 
amounts to overall dishonorable service.
    The VA can do this and does do this even when that 
misconduct is a direct result of mental health trauma acquired 
in service. This happens too often and it needs to stop.
    I will give you an example of a servicemember who has not 
completed suicide, because I want to focus on the people that 
this bill can still help. Terrence Harvey was a combat 
infantryman. He served the 82nd in the first Gulf war, he 
cleared bunkers in Iraq and walked the highway of death in 
Kuwait. When he came back he started showing signs of severe 
PTSD and after a few months he attempted suicide in the 
service. He wasn't getting the care he needed. He asked his 
command for leave to be with his family. When his command said 
no, he went anyway. When he came back, they discharged him for 
misconduct.
    He still struggles with PTSD. He has been in and out of 
psychiatric hospitalization, including this past year. He has 
lived on the streets, which is where Swords to Plowshares found 
him. And he has attempted suicide again. That was misconduct 
and Terrence needed to be separated from the service, but the 
VA is wrong to deny him access to its care because of that one 
misconduct they believe overshadows his service and renders him 
ineligible for VA benefits.
    That policy on the VA's part is unfair and it is unsafe, 
both for Terrence and for people around him. Terrence does not 
deserve to die by suicide. And his daughter who killed herself 
age 16 did not deserve to live with a father with untreated 
combat PTSD.
    This will not be comprehensive suicide prevention bill as 
long as Veterans like Terrence are being shut out. Section 3 
deals with this by asking the DoD to fix it. Section 3 
instructs the DoD to take mental illness into account when 
veterans ask for discharge upgrades. The DoD should do so. But 
this is not a direct solution to the problem of suicide. The 
direct solution will deal with this through the VA itself. This 
is because it is the VA, not the DoD who decides eligibility 
for veterans' services. The VA does not need the DoD's 
permission on this, to grant eligibility for people like 
Terrence.
    Every day the VA evaluates servicemembers like Terrence and 
decides whether their misconduct was so severe and so 
dishonorable they should be shut out from care by the VA. It is 
it the VA's call. This is where the problem is and that is 
where it can be fixed.
    There is a straightforward legislative solution to this. 
The VA already has the authority to let servicemembers like 
Terrence in, they already have procedures and policies for 
doing so, and they have already made their own criteria, not 
Congress' criteria for making that decision.
    If Congress doesn't like the results of that decision, they 
can simply give new criteria for the VA to implement, no 
additional costs, or procedures, or time.
    There are two shortcomings to this criteria that I would 
like to draw to your attention. First, they don't fully account 
for mental health conditions. If the veterans misconduct was 
the result of the a mental health problem like it, was for 
Terrence, the VA will excuse that misconduct only if the 
severity arose to the level of criminal insanity. This doesn't 
help Terrence. Terrence had severe life-threatening PTSD, but 
he wasn't insane so it doesn't help him.
    Second, it doesn't account for combat deployment. There is 
nothing in VA regulation or policy which says that its staff 
must take into account a combat deployment when deciding if 
someone is eligible for VA services. Clearly that has to stop.
    The committee should give the VA two instructions on this. 
First, when someone has served in combat or has a mental health 
condition acquired in service, only severe misconduct should 
render them ineligible for VA services.
    Second, while the VA is making up its mind about this, it 
should provide tentative eligibility for two essential 
services, medical care and housing services. That is the basic 
services that someone in a mental health crisis needs.
    The current backlog means that waiting for this decision 
can take 1 to 3 years. That is too long to wait. This is an 
opportunity to make sure veterans like Terrence are under VA 
care. I hope the committee will take this opportunity to fix 
that. Thank you very much.

    [The prepared statement of Mr. Adams appears in the 
Appendix]

    Dr. Benishek. Thank you for your impassioned testimony 
there, Mr. Adams. Good job.
    Mr. Morosky, you have 5 minutes.

                   STATEMENT OF ALEKS MOROSKY

    Mr. Morosky. Chairman Benishek, Ranking Member Brownley and 
members of the subcommittee, on behalf of the men and women of 
the Veterans of Foreign Wars of the United States and our 
auxiliaries, I want to thank you for the opportunity to present 
the VFW's stance on legislation pending before this 
subcommittee.
    The bills we are discussing today are aimed at improving 
healthcare for veterans and servicemembers and we thank the 
committee for bringing them forward.
    H.R. 4720, the Medal of Honor Priority Care Act: The VFW 
supports this legislation which would elevate medal of honor 
recipients from VA priority group 3 to priority group 1. The 79 
living medal of honor recipients are held in the highest esteem 
by the veterans and military community. Accordingly, we believe 
it is entirely appropriate to grant them priority group 1 
status as a small, but meaningful symbol of our appreciation 
for their heroic actions.
    H.R. 4887, Expanding Care for Veterans Act: The VFW 
supports this legislation which would expand VA research, 
education and delivery of Complementary and Alternative 
Medicine treatments, also known as CAM.
    All too often, the VFW hears stories from veterans who were 
prescribed ineffective medications to treat their mental health 
conditions, and powerful addictive medications to treat pain. 
While drug therapies may be the best solution for some, we 
recognize that CAM therapies are often a better, safer 
alternative for others. While already in use on a limited basis 
throughout the department, we believe that VA should continue 
to expand access to alternative treatments.
    H.R. 4977, Creating Options for Veterans Expedited Recovery 
or COVER Act: The VFW supports this legislation which would 
establish a commission to survey veterans and examine the 
efficacy of VA mental healthcare and CAM in order to identify 
ways to improve outcomes.
    With more than 1.4 million veterans receiving specialized 
VA mental health treatment each year, VA must ensure that such 
services are safe and effective.
    H.R. 5059, the Clay Hunt Suicide Prevention for American 
Veterans Act or the SAV Act: The VFW is proud to support the 
Clay Hunt SAV Act, which is aimed at Combatting veteran 
suicide. This widely known crisis is one that weighs heavily on 
our Nation, especially on those of us who have served in 
uniform.
    When a veteran or servicemember becomes so hopeless they 
decide to take their own life, it is equally as devastating as 
life lost in combat. We would like to thank Representative Walz 
and Chairman Miller for bringing forth this bipartisan 
legislation. The SAV Act contains numerous provisions that 
would have a significant impact on preventing veteran suicide.
    We would offer a meaningful change to the way unfavorable 
discharges are reviewed by the Department of Defense in cases 
where servicemembers were likely suffering from undiagnosed 
mental health wounds. It would require VA and the National 
Guard Bureau to enter into strategic partnerships to ensure 
guardsmen don't fall between the cracks as they transition from 
duty. This legislation would also establish a VA community 
outreach program focused on successful active duty to veteran 
transition through peer support.
    The VFW believes these key provisions along with others 
contained in the bill will go a long way towards addressing the 
crisis of veteran suicide.
    H.R. 5475: The VFW supports this legislation which would 
expand VA's authority to provide healthcare to a newborn child 
whose delivery is furnished by VA from 7 to 14 days post birth. 
According to the Centers for Disease Control and Prevention, 
newborn screenings are vital to diagnosing and preventing 
certain health conditions that can affect a child's long-term 
health. The VFW understands the importance of high quality 
newborn healthcare and its impact on the lives of veterans and 
their families. We believe that VA should be authorized to do 
what is needed to ensure that newborn children whose delivery 
was furnished by VA receive the proper post-natal healthcare 
they may need.
    H.R. 5484, Toxic Exposure Research Act of 2014: The VFW 
supports this legislation which would establish an advisory 
board to assist VA in determining the association between 
adverse health conditions and exposure to toxic substances. It 
would also establish a national center for research to study 
the health affects of toxic exposures on the descendants of 
individuals who were exposed to such substances during their 
military service.
    The VFW does have concerns, however, with section 4, which 
would authorize the advisory board to determine whether a 
veteran who submits a claim has a health condition that would 
qualify them for VA healthcare or compensation benefits.
    Since the VA already has an established process for 
adjudicating disability claims, creating a new process for the 
unique purpose of deciding toxic exposure claims could add 
confusion to the disability evaluation system.
    We suggest that the advisory board's role in this process 
be limited to whether its research found that a health 
condition is associated with exposure to toxic substances. Such 
a process should serve to inform veterans of the advisory 
board's findings, not to determine a veterans eligibility for 
VA benefits.
    That being said, the VFW strongly believes that veterans 
should not have to wait decades before their illnesses 
associated with toxic exposures are recognized, and that more 
research is needed to determine what affects those exposures 
may have on their descendants.
    Mr. Chairman, this concludes my statement and I look 
forward to any questions you and other members of the 
subcommittee may have.

    [The prepared statement of Mr. Aleks Morosky appears in the 
Appendix]

    Dr. Benishek. Thank you very much, Mr. Morosky for your 
testimony.
    Mr. Rowan.

                    STATEMENT OF JOHN ROWAN

    Mr. Rowan. Good afternoon, Mr. Chairman, Ranking Member 
Brownley, distinguished members of the panel.
    First of all, Vietnam Veterans of America supports all the 
bills before you today and we want to be on the record for 
that. However, I do want to speak on a couple. First of all, we 
want to thank the chairman for his support of H.R. 5484. I will 
get into that secondly.
    I want to say a couple of words on the Clay Hunt SAV Act. 
Unfortunately I have been around in this business long enough 
and I am old enough to remember when Swords to Plowshares was 
created. And the problems they talk about today with suicide is 
still with the Vietnam vets. Sixty percent of veterans 
committing suicides today are my generation, over 50, they are 
the Vietnam vets primarily. It is still a problem for us. It 
was a problem for us when we came home and it is still a 
problem for us today. It is becoming more of a problem 
unfortunately as the veterans get older.
    So a lot of this effort is great and I am glad we are 
working on trying to save this younger veterans coming home and 
trying to do anything we can to save them. A lot of the Vietnam 
vets are mentoring these folks as they come home.
    But it is important also on this other issue, in 1972 Ralph 
Nader did a study that shows there were a half a million bad 
paper discharges issued during the Vietnam War, most of them 
for drugs, alcohol and AWOL. Minor nonsense stuff that cost 
people the rest of their lives to have an albatross around 
their neck.
    Many of them--veterans who came home from Vietnam and were 
stuck with another year of service who couldn't deal with life 
back in barracks. We see that today as well so it is a real 
problem. This is not a new problem, it is an old problem. And 
maybe if we were doing research on these and other problems 
we'd know what to do today and we wouldn't have to wait 35 
years to figure it out.
    As far as the Toxic Research Exposure Act of 2014, this is 
an issue we have been looking at for quite a number of years 
now, especially in the last couple of years. Vietnam Veterans 
of America have held numerous over 100, almost 150 now of town 
hall meetings all across the country asking veterans about 
their exposures to Agent Orange and how they think it affected 
their families. And unfortunately, the answer is pretty 
horrifying.
    Now, I can't tell you for absolutely sure that every issue 
and every illness is because of Agent Orange I would never say 
that. I am not an scientist, wouldn't even think about it. But 
the reality is the VA has done very little in the way of 
studying Agent Orange affects in anybody ever, in the whole 
history of Vietnam veterans coming home. All the years that we 
have been dealing with the Agent Orange Act since 1991, there 
has always been outside research the IOM on how to review, not 
research done by the VA, or through the VA, or under the 
auspices of the VA.
    So we really must encourage you to get this bill passed and 
it may need some tweaking. And I can tell you we are not 
looking to play with the claims part of how claims are done. We 
are simply saying if we see something going on, and we see 
these issues coming up, you better start taking a look at 
whether or not it deserves a claim.
    And all we have asked people to do is if they think their 
child's issues are related to their exposure as a veteran, file 
a claim, get denied, but at least let's get it in. And we have 
got the VA putting all of those claims in one place in Denver 
so we can compile the information coming in and get an idea of 
what kind of wide range of unfortunate illnesses or issues we 
are dealing with. So that hopefully will give them some 
direction on what it is they need to research.
    So we encourage you to please pass this bill and if we have 
to tweak it, we will. But the key to this bill also, it is not 
just about us, it is not just about the Vietnam veterans. We 
may be the first and one of the largest groups to have been 
exposed--actually, we weren't the first, talk to the atomic 
veterans from World War II, but we are the biggest probably of 
being exposed out there.
    But the Persian Gulf veterans frankly have more of a 
problem than we do in some ways. It is just that fortunately 
they didn't send that 2 million people to the Persian Gulf the 
first time out. Now unfortunately they sent them back to the 
Persian Gulf for the second time out and we have got a couple 
million people who have tromped through Iraq, and Afghanistan, 
and other wonderful places and exposed to who knows what out 
there.
    And I can tell you after talking to some of the troops who 
have come home and talking about their illnesses already and 
some of their children's illnesses already we have some real 
serious concerns about what they have been exposed to. So it is 
extremely important that this bill go through and we start 
getting this research done now.
    I am 69 years old. I have been waiting for this stuff for a 
long time. The children of the Vietnam veterans are in their 
forties. It is the grandchildren that now we are even looking 
at, who even those are in their twenties. I have friends of 
mine who are great great grand parents. So it is time, it is 
just that simple, it is time.
    Thank you.

    [The prepared statement of Mr. John Rowan appears in the 
Appendix]

    Dr. Benishek. Thank you, Mr. Rowan, for your testimony.
    I appreciate the fact that all you gentleman came and 
testified today, that is really fabulous.
    I am going to yield myself 5 minutes for comments and 
questions.
    Let me just say that frankly I brought up this toxic 
exposure bill after talking to veterans in my District. I go 
around, have a group and try to meet with veterans in every 
little town I can at the VFW or the American Legion and they 
just brought up this issue of these burn pits, which frankly I 
hadn't really heard of until they brought it to my attention, 
in the Persian Gulf war back in the 1990s.
    We really need to be more on top of this possible exposure, 
because like you say, the Agent Orange issue didn't come out 
until 20 years after Vietnam, if not longer. And, we just need 
to be on top of these possible exposures in a more timely 
fashion. That is one of the reasons I brought forward the bill 
and we are happy to look at tweaks to it to make sure it 
doesn't affect, the determination of disability. That is the 
reason we are having this hearing franking is to get input from 
other people to learn more about how to do things.
    The only other comment I wish to make was about the 
alternative therapies. I just got exposed to an equine therapy 
in my District. I went out with Ms. Brownley in California and 
got some exposure to Hope. And, I am not really a horse person, 
but I went to this equine therapy and I met some veterans 
there, Vietnam War veterans who were mentoring younger veterans 
who felt it was a real help to them, because as you know, not 
the same treatment is good for everyone. There should be a wide 
variety of options to treat people with PTSD and other combat 
trauma history. I thought it was really an awakening.
    The problem is how to make sure that, there is a good 
quality of treatment and there is a good effect with all this 
disparate types of alternative therapies. We have heard from 
yoga to acupuncture. How are we going to make sure this all 
makes sense to veterans? I am happy to explore that in this 
committee, but we need to make some progress. I think Ms. 
Brownley's bill is a great step forward.
    Do any of you have comments on the alternative medical 
therapies as proposed and the couple of pieces of legislation I 
have today? Anybody want to weigh in?
    Mr. Neiweem. Mr. Chairman, I will just jump in. I think 
looking at complementing alternative medicines would be a step 
forward, and certainly some pieces of legislation start 
including survey instruments, you know, looking at veterans and 
sort of talking to them. I think when you focus on the veteran, 
you get that feedback, and so instead of asking VA, you are 
asking veterans. And many veterans can benefit from these types 
of treatments and it goes hand in hand with the peer support 
model of veterans tending to be comfortable talking to other 
veterans.
    Mr. Rowan. Yeah, I would add too, that the only caveat we 
had about that is it needs to be reviewed scientifically, that 
we ensure that what they are doing is in fact scientifically 
correct, and that they can double-check it and triple-check it 
and make sure it is working.
    One of the other things I think you will find a lot of time 
with the alternatives therapies is they can't be done alone. 
And that is one of the problems we got. Sometimes people tend 
to grab on one thing and say, oh, this is wonderful. This is 
all I have to do and I am going to be cured. Well, not really.
    I mean we got into that years ago with alcohol and 
substance abuse. We would clean people off, dry them out in the 
VA rehabs and all this stuff and they would come right back 
again because nobody never ever dealt with their PTSD, which is 
why they were getting drug and alcohol problems in the first 
place. You needed to do both. You had to dry them out at the 
same time you were treating them for PTSD.
    So yes, maybe somebody needs a therapy dog because it calms 
them down, and it is really cool, and I like dogs. And I can 
understand that, but at the same time, they still need to go to 
therapy, they still need to go to a rap group, they still need 
to talk their problems out. So as a complementary program, I 
think it would be very interesting, as long as the science 
works.
    Dr. Benishek. I definitely agree with that, Mr. Rowan. 
Thank you.
    I will yield the remainder of my time.
    Ms. Brownley. I yield to you for 5 minutes.
    Ms. Brownley. Thank you, Mr. Chairman.
    And I guess I just wanted to follow up on that with you, 
Mr. Rowan, because my understanding is at least with the bill 
that we were just talking about, 4887, that you had said that 
you felt hesitant about endorsing it because you felt like more 
research needed to be done, which is consistent with what you 
just said.
    And I wanted to make it clear that the bill before us 
today--actually includes the research component of that 
defined, to really determine its efficacy. And if it is a 
proven program, then to figure out how to integrate it into the 
various services, for our veterans. And so, I would love it if 
you would take another look and overwhelmingly support the 
bill, I would appreciate it very much.
    Mr. Rowan. Yes, we will. The head of my veterans health 
council is the guy who is really the expert on all of this 
stuff. And so he is my PTSD person so he is going to be the one 
to follow it, I'm sure.
    And we will be happy to work with you on that one.
    Ms. Brownley. Very good. Very good.
    And I know that the chair was speaking of Reigns of Hope 
that is in my district, equine therapy. But there is a 
psychotherapist there. And so it is complementary.
    And I know that the veterans who are going there for 
services tried all of the traditional methods and it wasn't 
until they got out into a rather beautiful setting up in Ojai, 
if anybody has ever been in Ojai, it is in my district--in a 
beautiful open setting in an orange grove, around horses and a 
very calming atmosphere that, finally, veterans were willing to 
really begin to talk about what some of their issues are.
    Mr. Rowan. Yeah. I think what--you are just making a good 
point, the issue of being out somewhere where it is nice and 
calm and peaceful.
    Vets--a lot of the vets--the Vietnam vets literally did 
that, ran into the hills. Couldn't live in the cities. Had to 
get out. Had to get into the countryside. It was part of the 
way they coped.
    But, again, I think the key is the complementary aspect. 
You know, it is no question, if they can get calmed down, then 
they can get treatment. You can talk to them. If they are in an 
agitated state, somebody is not going to talk to you.
    So if the animals will calm them down or other kinds of 
treatments calm them down and they can get them into a program, 
get them into a rap group, boy, that is terrific.
    Ms. Brownley. Yes. We have some veterans who are traveling 
6 hours to actually utilize this therapy because it has been 
the only thing that has really worked for them.
    Mr. Neiweem. am I pronouncing your name correctly?
    Mr. Neiweem. It is pretty close, Ms. Ranking Member. It is 
``Neiweem.''
    Ms. Brownley. ``Neiweem.'' I apologize.
    So in your testimony you stated that suicide prevention is 
obviously your number one priority, as is ours. And you talked 
about the Clay Hunt Bill as being a starting point.
    What else should we be doing?
    Mr. Neiweem. Well, I think there are several provisions in 
the Clay Hunt Bill, but just one example is the community 
outreach prevention.
    So we are looking at creating these veteran networks and 
expanding peer-to-peer support, and we reach out there. And you 
talk to veterans and they are always comfortable talking with 
other veterans. We hear that again and again.
    So it's been sort of a successful approach. In some of the 
scenarios where, you know, that tragic ending occurs, usually 
that individual has lost touch with the community and left.
    And in, you know, VA's written remarks, they sort of--you 
know, they talk about the peer support program they have right 
now. They describe it as, you know, a very robust support 
program that has at least three specialists at every VA medical 
center. Three people is very robust? I would disagree with 
that.
    Now, it is good and it is--it is working. I think it is 
successful in looking at the 973 peer specialists. But why 
aren't we doubling down on that? Why aren't we looking at that 
and expanding that to get more veterans out in the community?
    You know, we know that VA has had these mental health 
summits and reached out. But is that enough? So you have one 
summit and then it is sort of you all get together and then you 
lose touch. So this bill gets into that.
    And we appreciate all the support from all the members, 
especially Chairman Miller, Mr. Walz and others, pushing this 
bill. So that is one example. It just is emphasizing peer 
support. That is just one section of the bill, one example.
    And your bill, Congresswoman Brownley, looking at CAM--I 
mean, we have to look at that. And if we don't look at it and 
work towards looking at evidence-based things, then we are 
never going to add it.
    And we have to get away from this ``VA knows best,'' you 
know sort of philosophy, ``The VA knows,'' ``The VA.'' Well, 
talk to the veterans. Because, for many, it is very therapeutic 
to horseback-ride, fishing. The list goes on. So----
    Ms. Brownley. Thank you, sir.
    And I will yield back.
    Dr. Benishek. Thanks, Ms. Brownley.
    Dr. Roe.
    Dr. Roe. Thank you, Mr. Chairman.
    First of all, thank you all for your service. Mr. Rowan and 
I are of the same vintage. So thank you for your service in 
Vietnam.
    We have--one of our famous VA medical centers is the Alvin 
C. York Medical Center, a Medal of Honor winner. And when I 
was--we were doing the VA bill last--this last summer, before 
we went on recess and got it signed into law, I discovered, as 
Tim Walberg did, that a Medal of Honor winner was a category 3. 
I want them to have the Secretary's name on speed dial.
    There are 79 of these men. I had the privilege of being at 
the Bristol Brothers Speedway in August with three Medal of 
Honor winners. And they had their convention in Knoxville that 
weekend. And those men should go to the front of the line. That 
is one--that is basically one Medal of Honor winner for every 
other major medical center.
    I don't think it is going to create any big hardship for 
the VA to take care of these men, and--and I think they should 
be at the front of the line. If they want an appointment at 10 
o'clock tomorrow, a Medal of Honor winner ought to have it. It 
ought to cost them absolutely nothing.
    So I would want to expand a little bit on Mr. Walberg's and 
go full bore on that for a Medal of Honor winner. That is just 
a shout-out to them. We have had two in my district. These are 
incredible people and they need to be honored.
    And it is shameful that we had them ever as a category 3. 
They are number 1 in my book forever. As a matter of fact, they 
ought to have the President's number on speed dial. That is how 
I feel about the Medal of Honor winners.
    Now, number two, on what Mr. Collins was talking about, 
typically, on a newborn baby, probably 95 percent of the issues 
that we see--and Dan can help me with this--but probably 95 
percent of the issues that we see exacerbate themselves within 
6 weeks.
    I don't know what the problem is with just having a 6 
weeks' checkup included in that bill, like we do for any other 
pregnant mother. I took care of women for 30 years and 
delivered their babies and took care of their children.
    And I don't know why 2 weeks is put in there. I have never 
seen a 2-week checkup. My children always got checked by the 
pediatrician, and they went on and had their 6 weeks' checkup. 
And I would just expand that to 6 weeks and let's get most of 
the issues out of the way. That is just a suggestion that I 
have.
    One of the things that--that I agree totally on are on your 
alternative therapies. Mr. Rowan is correct. We do need to use 
evidence-based therapy. I think you are right or you will end 
up wasting a lot of money and time and maybe not do any good. 
So I think that is extremely important. Ms. Brownley, I agree 
with you on that.
    And we are very much involved in this. My wife is helping 
set up a pet therapy program for our local VA, and many people 
want to help. We know those things help. I saw a veteran the 
other day with his service dog with him at a--at a Memorial--I 
mean, at a Veterans Day event. And I know this guy. And he is 
much, much better because of that therapy dog. There is no 
question about it. And he says he is and he can function now.
    But it needs to be studied. It is not for everybody. And I 
agree with you, Mr. Rowan. It is probably--adjunctive therapy, 
we should call it, not primary therapy.
    The one issue--and, Mr. Adams, I want you to respond to 
this. And this is a real problem I have had dealing with, 
because we have veterans, as Mr. Rowan pointed out, that come 
to my office--my Congressional office who--usually, it is 
Vietnam--who went AWOL after they got back.
    I know--when I was in the 2nd Infantry Division, we 
couldn't tolerate that behavior, if you had someone that was 
disruptive like that. And probably there is no doubt--I was a 
medical officer in the 2nd Infantry Division. I probably did a 
very poor job of identifying some of these folks with mental 
illness and--who should have been--had a general discharge, not 
dishonorable discharge, from the military and they would have 
been able to do what you do.
    But we all know that a soldier that goes AWOL puts his unit 
at risk. And that is the trouble I have had in dealing with 
that. How--how do you--I know it was a bad decision. It could 
have been because of something they had no control of.
    As Mr. Rowan said, going forward--it has taken us 40 years 
to figure this out--I think the DoD needs to be more careful 
when they discharge someone to--to be clear, instead of just 
getting it off the books quick and taking care of the problem, 
because it carries, as you pointed out, Mr. Adams, a lifetime 
of ramifications. Because that person could very well be 
brought back into society and have a perfectly productive life 
if they are treated right. Maybe we just missed it on the way 
in or out.
    So you have got to help me with that a little bit because I 
don't--that one is tough for the military. It is. Because they 
can't have disruptive behavior in a platoon or whatever.
    So if you would let me have about a minute and let him 
respond to that.
    Dr. Benishek. Sure.
    Dr. Roe. Thank you.
    Mr. Adams. Well, thanks for your interest in your question, 
Dr. Roe.
    I agree with you entirely. I agree with you entirely. And, 
as I said, in the case of Terrence Harvey, he needed probably 
to be separated from service.
    Now, the VA should have done it properly. It should have 
identified the problem, given him a medical discharge. They 
didn't do that. And that should be corrected by the Armed 
Services Committee through the DoD.
    It is a different question today if that person who needed 
to have been separated from service for whatever reason 
deserves our society's and country's support dealing with the 
burdens they carry from the service. And the law is already 
written to separate those two things because they are 
different.
    The commander needs to make decisions today to ensure the 
effectiveness of his unit today. The VA needs to make decisions 
over the life of that veteran to ensure that we uphold our 
responsibilities to that veteran. They are two different 
things.
    If the committee puts the burden on the DoD for deciding 
who gets sent out of the VA, they are essentially combining 
those two things, giving responsibility to the commanders that 
the commanders don't want. The commanders don't want to be 
responsible for the lifetime after that veteran actually left 
service.
    By separating those, giving clear separate instructions to 
the VA, that allows the DoD and the VA to do their separate 
jobs and allows us to give appropriate response and treatment 
to veterans on a case-by-case basis.
    Dr. Roe. But they would be--they would be given a medical 
discharge, though. That has to happen at the DoD level.
    Mr. Adams. So the correct way to proceed, to take the 
example of Mr. Harvey, was he should have been recognized and 
diagnosed with PTSD and given a medical discharge. And if that 
had happened, he would be in the door at the VA.
    Dr. Roe. He would be fine. Right.
    Mr. Adams. He would be fine.
    Now, what we can do right now is you can tell him to go 
back to the DoD and ask them to change their mind.
    Dr. Roe. It will never happen.
    Mr. Adams. Well, yeah. I mean, I can--I do it. It takes 3 
years, 87 percent denial rate, depending on service. There is 
two different agencies, different forms, different procedures. 
It just doesn't--it is not a solution to at-risk veterans.
    The VA can solve it on the spot. That is under the existing 
law. They just have rules that I think don't reflect the public 
and certainly not my expectations of who should be in, who 
should be out.
    Dr. Roe. Thank you.
    I thank the Chairman for allowing me to have a little extra 
time. I yield back.
    Dr. Benishek. Absolutely.
    Mr. Rowan. Mr. Chairman, can I respond to the Doctor's 
question just quick?
    We did this back in the 1970s and 1980s. I did discharge 
upgrades. We upgraded 70 to 80 percent of the claims we did in 
New York City at the time.
    The reality--and we--and we are suing all of the military 
people right now about these discharges they gave out for the 
wrong diagnosis that should have been PTSD.
    But I wholeheartedly agree. The VA can bring all these 
people in tomorrow. They can take them. Unless they had a 
dishonorable discharge for serious crimes and offenses, they 
can take them in and treat them. And that is the key part, the 
treatment.
    Dr. Benishek. Mr. Bilirakis, 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
again.
    And I want to thank the panel for their support and their 
testimony today, but thank you for the support of the COVER 
Act. And, again, that is why we are here. If you have any 
suggestions to improve my particular bill, please don't ever 
hesitate.
    And, again, I am big on these alternative therapies or 
complementary therapies. I know they work because I speak to 
the veterans every day. But, of course, we do have to have the 
science.
    I have a couple questions and then--I would appreciate a 
yes or no. But if you have to elaborate quickly, that is fine, 
too. But I want--for the entire panel.
    I guess we will begin with Mr. Neiweem.
    Do you believe the therapies accepted and currently 
practiced by the VA are yielding the best wellness-based 
outcomes for veterans affected by the mental health concerns?
    Mr. Neiweem. Congressman, first of all, we support your 
bill strongly.
    I would say there is essentially sort of two tracks. There 
is the counseling track, and there is sort of the prescription 
drug track, in my experience. So those results vary greatly, 
depending on the individual.
    So that is my--my best answer is it varies. So the 
incorporation of CAM alternatives I think offers new 
alternatives that we need to look at.
    Mr. Bilirakis. Thank you.
    Mr. Adams.
    Mr. Adams. With respect, Mr. Congressman, our attention is 
really focused on those who are excluded entirely from the VA 
health system.
    There are two narrow benefits that are available to people, 
even if they have what--what we call bad paper, and they are 
too limited.
    One is access to the vet centers, which you may be familiar 
with. They have the same eligibility requirements, but they 
just basically don't ask too many questions when people come 
in.
    They only provide talk therapy. We would love it if they 
also had access to medical treatment as well as complementary 
treatment. None of those are available to them, and we hope 
that that--that can be.
    Mr. Bilirakis. Mr. Morosky.
    Mr. Morosky. I would say some are more successful than 
others. More needs to be done.
    Mr. Bilirakis. Mr. Rowan.
    Mr. Rowan. No.
    Mr. Bilirakis. Okay. Thank you very much. Appreciate it.
    Do you believe the veterans affected by mental health are 
being over-prescribed with prescription drugs for their 
ailments? If we can start right here again.
    Mr. Neiweem. I think, in some cases, that is true. And I 
think, in the case of many veterans, that is where, you know, 
sort of VA can be lagging, too, is the time that elapses 
between appointments, struggling to get, you know, an 
appointment with a, you know, VA outpatient clinic.
    If you have, you know, adverse reaction to certain 
medications, certainly, you know, you can call. But, again, 
until we improve sort of the time with which veterans can get 
in there, you know, I think we are going to still see, you 
know, issues with prescription medications and others as things 
can change.
    So consistency with--with VA appointments and timeliness 
with getting veterans in to see care I think is critical.
    Mr. Bilirakis. Mr. Adams.
    Mr. Adams. I do work with veterans who feel that they are 
over-prescribed medication. From my perspective, often I think 
the problem is they don't understand that they have options, 
even within medical responses. So veterans will say, ``This 
makes me feel terrible. I am going off my meds.''
    Mr. Bilirakis. Are there options within the VA?
    Mr. Adams. Within--even within the VA. Even within medical 
treatment. I mean, there is really a sense of powerlessness 
among--among some. So some say, ``I am going off meds. I just 
can't take it.''
    And I say, ``You know, you can do that if you want, but you 
can also go to your doctor and say, `I feel this way. I don't 
feel good. This drug you put me on last week does make me feel 
bad. Do you have something else?' "
    And so I think encouraging both the existence of options 
within and outside the VA, inside and outside the medical--
certainly the medical sphere--I think that can go a long way 
toward giving people control over their health.
    Mr. Bilirakis. Thank you, sir.
    Mr. Morosky.
    Mr. Morosky. We hear from veterans that feel overmedicated, 
that feel that they are medicated incorrectly. They are 
receiving pills that aren't doing anything for them, but 
certainly are overmedicated. We know of people who have died 
from overdoses because of overmedication.
    So this is one of the reasons why we think CAM therapies 
are important, because it goes away from the one size fits all 
and gives people other safer alternatives.
    Mr. Bilirakis. Yeah. You know a lot of these alternative 
therapies are available. But the ranking member said, you know, 
you have to drive 6 hours for the equine therapy. And we have 
it in our district, too.
    But the problem is that, financially, a lot of these 
nonprofits are having a hard time during these economic times. 
And we need to reimburse them for these service, if they are 
effective. And I see that they are effective.
    Mr. Rowan.
    Mr. Rowan. I think it is less of a problem than it was in 
the early days. I can tell you that. All they had was drug 
therapy originally. I mean, there were no--that is--there was 
nothing. They just--the guy went over there, they gave you a 
bunch of pills and you went home and often got yourself in 
deeper trouble.
    The key, I think, is the combination of all of the things. 
And I think the problem is it is just not enough staff time and 
not enough veteran centers out there. There is just not enough 
of anything out there. They need more staff. They need more 
help. They need to get people in to be treated quickly. That is 
the other problem.
    You can't let somebody languish out there when they have a 
mental health question going on because often there is other 
issues. You know--and, you know, the typical thing that usually 
shows up is substance abuse or alcoholism, spousal abuse, child 
abuse.
    I mean, one of the key things, I think, that works, by the 
way, is the vet court system because that captures these folks 
and at least we get in--that forces them to get into a system 
and to have somebody supervise them--that is the other key 
question--having the outside agency like the court supervise 
their process and having a veteran mentor helping them through 
the process.
    Mr. Bilirakis. Very good.
    Mr. Rowan. And some of that may be therapy. And some of--
all the other kinds of things you are talking are very 
interesting. We would like to talk about it.
    Mr. Bilirakis. Thank you very much.
    I--well, my time has expired, Mr. Chairman. I yield back.
    Dr. Benishek. Thank you.
    I want to thank you gentleman for appearing before us 
today. And I really appreciate your input. And stay in touch 
with us so we can tweak these things that help us all better. 
Thanks so much.
    I would like to welcome the third and final panel to the 
witness table.
    Joining us from the Department of Veterans Affairs is Dr. 
Rajiv Jain, Assistant Deputy Under Secretary for Health for 
Patient Care Services.
    Dr. Jain is accompanied by Jennifer Gray, Staff Attorney 
for the VA Office of General Counsel.
    Thank you both for joining us today.

    STATEMENTS OF RAJIV JAIN, M.D., ASSISTANT DEPUTY UNDER 
SECRETARY FOR HEALTH FOR PATIENT CARE SERVICES, VETERANS HEALTH 
 ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; JENNIFER 
  GRAY, ESQ., STAFF ATTORNEY, OFFICE OF GENERAL COUNSEL, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

                 STATEMENT OF RAJIV JAIN, M.D.

    Dr. Jain. Thank you, Mr. Chairman. Good afternoon. And 
Ranking Member Brownley and members of the subcommittee, thank 
you for the opportunity to address the bills on today's agenda 
and to discuss the impact of these bills and VHA's healthcare 
operations. Joining me today is Jennifer Gray with VA's Office 
of the General Counsel on my left.
    I want to first thank the subcommittee for the opportunity 
to testify concerning the bills we support, starting with H.R. 
5475.
    VA supports H.R. 5475, which would expand coverage for 
newborns through their first 14 days of life. We are still 
analyzing the cost of this bill, but we believe it would 
provide an expanded benefit to a relatively small number of 
newborns who need the additional coverage.
    VA also fully supports and appreciates H.R. 4720, 
legislation designed to recognize the service of Medal of Honor 
recipients and to ensure that they receive cost-free care to 
maintain their health and well-being. Toward this end, VA 
believes that, in addition to moving them to priority group 1, 
we would need to amend the statutory authorities governing 
copayments.
    However, we would like to work with the committee to ensure 
that the end goal of costly care is attained as it is for other 
special categories of veterans, such as catastrophically 
disabled veterans, former prisoners of war, and Purple Heart 
recipients.
    VA also supports the goals of H.R. 4977, which would 
establish a commission to examine the efficacy of the evidence-
based therapy model used for treating mental health illnesses, 
identify areas to improve wellness-based outcomes, conduct 
patient-centered surveys, and examine available research on 
complementary and alternative treatment therapies for mental 
health issues.
    However, as outlined in our testimony, we have concerns 
about the manner in which the bill would carry out that goal 
because of the duplicative nature of some of the requirements 
and the unintended burden it may place upon our veterans. We 
would like to work with the committee to address these concerns 
and develop a bill that addresses the needs of these veterans.
    Likewise, we believe that H.R. 5059, the Clay Hunt Suicide 
Prevention for American Veterans Act, is a very important piece 
of legislation, but may potentially overlap with programs 
already underway in VA.
    VA appreciates that Congress continues to raise awareness 
of mental healthcare and suicide prevention, two of our highest 
priorities. VA would welcome discussions with the committee to 
examine how best to address these issues and identify and fill 
gaps that may exist.
    We received H.R. 4887, the Expanded Care For Veterans Act, 
and H.R. 5686, the Physician Ambassadors Helping Veterans Act, 
just prior to today's hearing. And, therefore, we were not able 
to provide views at this time. We would be happy to discuss 
either of these bills today or to meet with the committee to 
provide technical assistance going forward.
    Finally, let me state at the outset that, while we do not 
support H.R. 5484, we do support the goals behind many of the 
provisions in this bill. However, we are concerned that key 
elements are not clearly defined, such as how a newly 
established advisory board for toxic exposures would review 
claims and operate in relation to existing statutes, 
regulations, and processes for claims adjudication.
    We also feel that the center established by the bill would 
duplicate the work being done by other agencies that have been 
doing this sort of work for many years. We would like to 
acknowledge that more needs to be done in this area, and we 
would be happy to work with the VSOs and the committee to 
address these issues.
    In closing, thank you, Mr. Chairman, for the opportunity to 
testify before you today. My colleague and I would be pleased 
to respond to your questions.

    [The prepared statement of Dr. Jain appears in the 
Appendix]

    Dr. Benishek. Thank you, Dr. Jain.
    I would like to yield myself 5 minutes to discuss this 
legislation and to ask some questions.
    I am curious about this written testimony that placed the 
Medal of Honor recipients in priority group 1 rather than 
priority group 3. There was a statement, apparently, in your 
written testimony that said this would result in no additional 
benefit for the veteran.
    Dr. Jain. Sir----
    Dr. Benishek. What does that mean exactly?
    Dr. Jain. Right, sir. Mr. Chairman, I will be happy to 
clarify.
    The issue here--and I will turn to my colleague here on the 
left in a second--but the issue is that the--the service of 
medal recipients who are in category 3, if we were to move them 
in category 1, which we do support, would still not give them 
the cost-free care that we are looking for because the statutes 
that govern that piece are different statutes.
    But let me ask Ms. Gray to clarify that.
    Ms. Gray. Right. So we have specific statutes that deal 
with copayments. For example, 1722A deals with the medication 
copayments, and that is tied--those who are exempted from 
paying the copayment, it is tied to either service connection 
or income or being a prisoner of war.
    So in order to make sure that recipients of the Medal of 
Honor are also exempt, we would have to make changes to 1722A 
and, likewise, 1710 and 1710B.
    Dr. Benishek. Is there any other difference, then, between 
the veterans in priority group 1 and priority group 3? Is there 
any difference, other than that provision, between the people 
that----
    Dr. Jain. No, sir, as far as we know. Now, those service of 
medal recipients that are already service-connected, they would 
automatically be in priority group 1.
    So the difference is whether they are service-connected or 
not, and that is what ends up being there in group 3. So we 
definitely support moving them to group 1. So that would be 
definitely the right thing to do.
    Dr. Benishek. All right. I have another question about H.R. 
5059 that you are somewhat unsure if we could do anything more 
for the veteran, because you think you are doing everything.
    It doesn't seem to jibe with the fact that we have 22 
veterans a day that are still committing suicide, and that 
number doesn't seem to be changing all that dramatically to me.
    So, I mean, if this doesn't do it, then, what would do it, 
Dr. Jain? I mean, I want to get that number down to zero.
    Dr. Jain. Sir--Mr. Chairman, we fully agree with you. And 
so the issue is not that we don't support the goals. We 
definitely support the goals. The only concern that we have is 
that we have other efforts underway in the VA that are 
achieving the kind of things that the bill would achieve.
    So I will give you some examples, sir. The--for example, 
the issue of the outside review, we have a contract with the 
National Academies of Science, which is a purely independent 
body that is currently in effect, and that is reviewing the 
mental health and the suicide prevention programs in the VA.
    We also have done data-sharing agreements with all the 50 
States to understand our understanding of the suicides. And we 
published a report in February 2013 from that to inform our 
prevention efforts. We also have a VA/DoD suicide data 
repository, and we published a report in January of 2014.
    But we do support, sir, the--that there should be a one-
time targeted evaluation of the suicide prevention program to 
support the implementation of the 2013 joint VA and DoD 
clinical practice guidelines for management of risk of suicide. 
So----
    Dr. Benishek. What has changed in the last 6 months, then, 
about suicide prevention practices within the VA that you have 
learned from the studies that you are already conducting? What 
have you changed? Have you changed anything in the last 6 
months, Dr. Jain?
    Dr. Jain. So--yes, sir. I think--let me clarify. I think 
that there are--about 3 to 4 months ago, we did a very deep 
dive into the four or five major causes for suicide, which have 
to do with depression, sleep disorders, PTSD.
    So we worked with our subject matter experts to understand 
what is the evidence base, and we have updated the--the 
guidelines for treatment of some of these conditions. And we 
are now in the process of implementation of those guidelines.
    Dr. Benishek. Well, I certainly understand that you are 
giving me a long answer. But I am still very disappointed in 
the way the VA is taking care of veterans who are suicidal.
    I mean, that is basically--the reason that we are sitting 
here today, Dr. Jain, is that 22 veterans are committing 
suicide a day and we want to find an answer.
    And you tell me that, you are doing your own outside 
evaluations, but the numbers--aren't going down, Dr. Jain, and 
that is a problem for me.
    Dr. Jain. I would agree with that, sir. And that is 
definitely a problem for us. And we are always looking at 
better ways of doing things. We are looking at whatever the 
evidence base is, whatever we can do, whether it is 
complementary and alternative therapies.
    And I know that Ms. Brownley's bill is--and we will talk 
about that in a minute. But we are always looking to see what 
other improvements we can put in place and how we can make the 
treatments better.
    Mr Benishek. Okay. Well----
    Dr. Jain. So to extent the bill would help us, we are 
certainly in support of that part.
    Dr. Benishek. All right. I am out of time.
    Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman.
    Well, thank you for the segue in terms of talking about my 
bill. I appreciate that very much.
    And in your testimony you said you hadn't really reviewed 
the bill. So if that is true, you don't have any concerns one 
way or the other because you haven't reviewed it. Or do you 
have some concerns regarding the efficacy of CAM therapies--if 
you will elaborate, please.
    Dr. Jain. Sure. And I would be--certainly be giving you 
some sort of general views on this and not the official view, 
as you are saying.
    So I think what we are trying to do here, we definitely do 
support in the sense that the VA has already made a commitment 
to develop an integrated health coordinating center.
    So we--we have this in our strategic plan to be moving 
towards whole health approaches, to be looking at alternative 
medicine approaches for pain management, PTSD, depression, you 
name it. I think there are many conditions that could be 
benefited by use of alternative therapies.
    I think--as the previous panel indicated, I think the 
concern that we have is that we need to make sure that the 
evidence base is strong. And so the VA is launching a study 
with Institute of Medicine, for example, to have them do a 
review with us to see what the evidence base is and what their 
recommendations would be. So that is a brand-new effort.
    We are also implementing some new therapies. For example, 
we have implemented acceptance and commitment therapy for 
depression. 600 clinicians were trained in that particular 
therapy. We have chiropractic services. We have health 
coaching. We have music therapy.
    And then we have EMDR, or eye movement desensitization and 
reprocessing therapy, in some of the locations where we have 
trained providers. So we are beginning to move in this 
direction. We are also conducting research to further support 
that.
    We are partnering with the National Institute of 
Complementary and Alternative Medicine to work with them. 
Several of our staff on their--are on their advisory committee 
and working with them to understand what is working and how we 
can bring that into the VA.
    Ms. Brownley. So in your research that you are speaking of 
and what you are doing to date, how are you interacting with 
veterans to find out what they want?
    Dr. Jain. That is a very good question, and I--and you 
bring that up. And, actually, we are just in the process of 
sending out a survey to veterans--it should be in the next few 
weeks--that would be asking just that question, to understand 
what their needs are, how they feel about this thing, and what 
they would prefer. So that is very much in process now.
    Ms. Brownley. Well, it is a little bit of a concern to me 
to hear that you are going down a path of research and training 
in some instances and not really understanding what our 
veterans want in terms of, what their priorities are.
    I mean, I would hope that, at the end of the day, their 
priorities would be our collective priorities. And so it is a 
little bit of a concern. It seems like it is an afterthought.
    Dr. Jain. Well, let me just say this. I mean, I certainly 
understand their concern. And we take that to heart, and we 
will continue to engage with the veterans.
    As you were mentioning in your example, some of the CAM 
therapies are, frankly, coming up as local innovations in some 
of our medical centers. So we are not holding them back. So I 
think the equine therapy is a perfect example.
    So what happens is, at some of our medical centers, you 
have clinicians who very much believe in a certain type of 
alternative therapy and, with the support of the local 
management, they are going forward with some of these ideas 
because they do want to solve some of these issues for our 
veterans.
    But now we are taking a more systematic effort, as a 
system-wide, to understand what the needs are and what is it 
that we need to do.
    Ms. Brownley. Are you familiar with the studies that the 
NIH and the VA, collaboratively are pursuing relative to 
alternative therapies in managing pain and other health 
conditions?
    Dr. Jain. Yes, I am. And, actually, based on some of those 
studies and some of the work that is already there, there is a 
commitment that the--the Integrated Health Center has made to 
pick two--at least two CAM therapies for chronic pain 
management by the end of next year.
    So this will require--now, you might ask why wait until the 
end of next year. So let me explain some of the challenges that 
we do face. There are issues relating to training of the 
providers. This really is a culture change.
    Most of our providers are trained in allopathic Western 
medicine. To bring in CAM therapies as adjunct therapies to 
main therapies will require the training of the staff. We are 
going to need to train our veterans.
    We are going to also work with--there are other challenges 
we are having. We don't even have--many of the States don't 
have licensing categories. They don't have certification 
categories. Within our system, we don't have professional 
groupings.
    So, for example, I will also tell you the acupuncturist is 
another example. So recently we--we do believe that acupuncture 
is a very--has a lot of the evidence now for pain management. 
And in order to hire the acupuncturist in the VA, we are now 
trying to create a professional category for acupuncturists.
    And as we are going out to hire those, we are finding out 
that most of the States have no provisions for acupuncturists 
in terms of licenses or certifications. So how do we even go 
out to recruit these folks when those things are not available? 
So we are at the cutting edge. And so I think we are dependent 
on some of these other things.
    Ms. Brownley. Well, I know I have exceeded my time. But if 
I could just make one comment before we conclude?
    Dr. Benishek. Sure.
    Ms. Brownley. So, I hear what you are saying. I don't 
think, at the end of the day, it is a good idea for the VA to 
decide to take all of these sort of CAM therapies and try to 
determine their efficacy and then try to bring them all under 
the VA roof.
    As you said, there are----
    Dr. Jain. Right.
    Ms. Brownley [continuing]. Various communities and programs 
that are taking place right now that are working--that we know 
are working for veterans and that I think we should take a--
sort of a systematic approach towards that and begin to, 
contract with some of these groups who are already proven and 
successful so that we are providing services to veterans today 
and not waiting for a year or 2 years to bring, all of these 
new therapies under the roof of the VA. So I will just offer 
that as a comment.
    Thank you, Mr. Chair.
    Dr. Benishek. Ms. Brown.
    Ms. Brown. Thank you.
    I guess my question goes back to the 22 veterans per day 
that is committing suicide. And what is exactly the Department 
doing to address this? Because I have found that it is not just 
one thing. I mean, are we working with the stakeholders? When 
we have a veteran that--let's say a homeless vet, it is not 
just that he needs a house. He needs comprehensive services.
    And I don't necessarily know whether the VA have to provide 
it. We can partner with some of our stakeholders. And so can 
you give us an update as to where we are.
    Dr. Jain. Yes. So thank you, Congressman, for that 
question.
    And I couldn't agree with you more. This is a very 
troubling issue, and we continue to be always looking to see 
what can we do better.
    And so I will just give you some of the examples of the 
kind of things we are constantly doing. And I realize it is 
still not enough because it still is a very significant issue.
    But--but over the last year or so, for example, we have 
developed a strong working collaboration with the Department of 
Defense where we develop the integrated health strategies that 
look at a combined guideline for suicide management. So this is 
a brand-new effort where the suicide management and DoD and the 
VA is now coordinated.
    We have this data registry that is joint between VA and DoD 
where we are able to exchange information with each other to 
understand what are the factors that are contributing to 
suicides. We have this partnership with the States where we 
exchange data with the States and understand what is happening 
in the States with veterans that we serve and veterans that we 
do not serve and what are the differences with that and what 
can we learn.
    And some of that data analysis, it is very interesting. And 
Mr. Rowan was testifying earlier that--that the numbers--when 
you look at the sheer numbers, the numbers are higher in our 
middle age to--you know, in the upper 50s, 60s veterans group, 
even though the younger veterans, the percentage is quite high. 
But the overall numbers are much higher in that group.
    So what we have found is that, within the VA--those 
veterans who receive care in the VA, those suicide rates are 
now starting to trend down as opposed to the veterans who do 
not receive care in the VA.
    So some of our programs are starting to have an impact, but 
it is not enough. And we are open to the idea of continuing to 
look, from any source, any ideas that we can find to implement 
those.
    Ms. Brown. The question about alternative medicine and 
particularly the acupuncture, in Florida, I do know that we 
certify--there is a couple of schools in my area.
    And it seems that it works for pain. I don't know about 
anything else, but pain--I know it don't work for weight. But I 
do know it works for pain and it works for some other things.
    So, like I said, we have two schools. And I will gladly get 
you information on it. We have a school in Jacksonville and a 
school in Orlando.
    Dr. Jain. Now, thank you, Ms. Brown.
    And I would agree with you. And that is why we have 
identified pain as one of the top areas where alternative 
matters can potentially help our veterans. So that is something 
that we will be looking at.
    Ms. Brown. Thank you.
    I yield back the balance of my time.
    Did you have any other comments about any other bills 
before us? I see that you said one of them, you just received 
it yesterday. So you didn't have any comments?
    Dr. Jain. So I think the only--well, I did make a comment 
on Ms. Brownley's bill. I think, in terms of the bill on the 
Physician Ambassadors Program----
    Ms. Brown. Yes. 5686.
    Dr. Jain. Right. 5686.
    I think the only one comment that I wanted to offer is 
that, even though officially, again, we do not have a formal 
view, but, generally speaking--and I was a chief of staff in 
Pittsburgh and, also, in Salem for many years. And so we have 
provisions in Title 38 now to bring the DoD compensation 
physicians. And I just found out that we currently have about 
4,100 WOC physicians in the VA system.
    So I think that part of our concern is that a lot of this 
is there and we didn't have the details, from what Congressman 
was saying, in terms of what the challenges are. But--but we 
are able to--I just wanted to say that we are able to bring WOC 
physicians now. And so that should not be an issue, unless 
there is some other concerns.
    Ms. Brown. Thank you.
    And I yield back the balance of my time.
    Dr. Benishek. I am just going to follow up, as long as I 
have you here, Dr. Jain----
    Dr. Jain. Yes, sir.
    Mr. Benishek [continuing]. On a couple of things that came 
up in the other folks' questions.
    And that is, apparently, Mr. Culberson was saying that, in 
talking to the VA that there wasn't a way for the volunteers 
to--did you hear his testimony?
    Dr. Jain. I did. And I really wanted to clarify with him 
because I was surprised about that, sir.
    Dr. Benishek. Well, I think we should look into that a 
little bit more.
    Dr. Jain. All right.
    Dr. Benishek. The only other question that has come up 
several times today--and Ms. Brownley and I were talking about 
it--and, I have a concern about this alternative therapy, for 
example, equine therapy, because to scientifically prove that 
the equine therapy is actually helpful to the veteran, that 
study may take years.
    And I know I have a concern, in view of the fact that I 
talk to every veteran that has been through it, they are all 
really positive about it and, yet, the time that it takes to 
certify this--there is no American society of equine therapists 
that are going to certify the equine therapy.
    Is there a way within the VA to do an individual evaluation 
of a program, on an individual basis and qualify that program 
for some sort of reimbursement?
    Because the people that I was working with, it is all 
volunteer or, funded by a nonprofit outside the VA, which is 
all well and good. Maybe that is the way we are going to have 
to go until we can get some kind of a certification process.
    But is there a process within the VA to do an individual 
program such as this and provide some reimbursement for the 
people that are doing that?
    Dr. Jain. So, Congressman, thank you for that question.
    I think that the general process that the VA follows to 
take an innovative idea like the one with equine therapy is to 
then validate that model with further research internally and 
then usually externally with Institute of Medicine.
    And we--over the years when--when you start talking about 
expanding the benefits package to include, we would have to 
then expand the benefit package to include this therapy. 
Because if you offer it in one part of the country--as you 
know, sir, we are a national system.
    So if we make it available in one part of the country, then 
we have to make it available to other veterans who may have 
need for that type of service. So that is always a challenge. 
So the process we usually follow is very heavily evidence-
based.
    Dr. Benishek. Well, no. I understand the reasoning for 
that. And, you know, I certainly want evidenced-based therapy. 
But it is just that we have such a crisis on our hands here.
    Dr. Jain. Right.
    Dr. Benishek. I am trying to figure out a way to reasonably 
expand the system without danger to our veterans, but also a 
way to get more people involved in the care.
    Dr. Jain. So there are--two mechanisms come to mind, sir. I 
think one would be to--we do have a process where we expand the 
pilot and then make it broader based, and that usually allows 
us to gather more information.
    We also can conduct research studies that are multicenter 
that allows using the research Dollars to further investigate 
the topic. So we do have a couple of mechanisms.
    Dr. Benishek. All right. Thank you for your time this 
afternoon. I think we are just about done.
    I ask unanimous consent that all members have 5 legislative 
days to revise and extend their remarks, and include extraneous 
material.
    Without objection, that is ordered.
    I would also like to thank all the witnesses and audience 
members for joining us this afternoon.
    The hearing is now adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]

                                APPENDIX

             Prepared Statement of Hon. Tim Walberg (MI-07)

    Testimony for Medal of Honor Priority Care Act (H.R.4720)
    Chairman Benishek, Ranking Member Brownley and Members of the 
Subcommittee, I thank you for the opportunity to speak this morning in 
support of my legislation, H.R.4720, the Medal of Honor Priority Care 
Act of 2014.
    As the Members of this Committee are well aware, the Congressional 
Medal of Honor is the highest award for valor which can be bestowed 
upon an individual serving in the United States Armed Forces and is 
awarded to soldiers who have displayed conspicuous gallantry and 
intrepidity at the risk of life above and beyond the call of duty. The 
Medal of Honor is a distinguished award given to a select few. Less 
than 3,500 has been awarded, and of those, only 79 are living 
recipients. When one looks at the recent major conflicts in Iraq and 
Afghanistan, only 16 have been awarded.
    My state of Michigan is honored to have two living recipients of 
this award, Corporal Duane E. Dewey and Private First Class Robert E. 
Simanek. Both received the decoration for their heroic action in the 
Korean War, and hearing of their harrowing stories of bravery has 
reminded me of the sacrifice American soldiers are willing to make to 
protect their comrades and their country.
    Medal of Honor recipients deserve our utmost appreciation, and I 
believe the small portion of our servicemembers who have gone above and 
beyond the call of duty and earned the highest honor in our nation's 
Armed Forces have earned the right to be placed in the top priority 
group to receive their healthcare benefits.
    All veterans deserve access to the healthcare they have earned, but 
as you all know, the VA uses a priority system to determine eligibility 
for these healthcare services. Some of the factors that will affect a 
soldier's priority group ranking are whether the soldier has a service-
connected disability, whether they were a former prisoner of war, the 
time and place of service, as well as income level. Currently, Medal of 
Honor recipients are in Priority Group 3.
    I'd be remiss in not pointing out that the idea to initially look 
into this legislation came from a veteran who lives in my district and 
works with the veteran community.
    This bill would not affect a large population of veterans, but I 
believe we have a duty to ensure these heroes have access to the VA 
when they need it. I'm proud to have the support of 13 of my colleagues 
from both sides of the aisle, as well as support from the Disabled 
American Veterans.
    I thank the Chair for permitting me to appear before the 
Subcommittee today.

                                 <F-dash>

        Prepared Statement of the Hon. Gus M. Bilirakis (FL-12)

    Thank you for holding this very important hearing and for providing 
me an opportunity to testify on my bill and discuss the importance of 
exploring complementary alternative treatments for Veterans affected 
with mental health concerns.
    As we all know, the costs of wars and the price for freedom are 
paid for through the valor of brave men and women. These individuals 
selflessly put themselves in harm's way so that we may enjoy the 
freedoms of our democracy. With statistics showing that one in five 
Veterans who served in Iraq and Afghanistan have been diagnosed with 
Post-Traumatic Stress, we must responsibly ask ourselves--are we doing 
enough when it comes to addressing mental health in our Veteran 
population?
    Recent data has shown that every day in this country--an estimated 
22 Veterans take their own lives. It is unconscionable that more 
casualties have occurred with our servicemembers here domestically upon 
their return from active duty as opposed to overseas while serving 
their country. Many of these tragic suicides are the result of 
depression, homelessness and a lack of available resources to assist in 
their transition into civilian life. My bill, H.R. 4977, the Creating 
Options for Veterans Expedited Recovery Act (COVER) will help remedy 
this tragic problem and provide additional therapies to our nation's 
wounded heroes.
    The COVER Act will establish a commission to examine the Department 
of Veterans Affairs current evidence-based therapy treatment model for 
treating mental illnesses among veterans. Additionally, it will analyze 
the potential benefits of incorporating complementary alternative 
treatments available within our communities.
    The duties of the commission designated under the COVER Act include 
conducting a patient-centered survey within each Veterans Integrated 
Service Network. The survey will examine several different factors 
related to the preferences and experiences of Veterans with regard to 
their interactions with the Department of Veterans Affairs. Instead of 
presuming to know what is best for Veterans, we should simply ask them 
and work with them on finding the right solutions that best fits their 
unique needs.
    The scope of the survey will include: the experience of a Veteran 
when seeking medical assistance with the Department of Veterans' 
Affairs; the experience of Veterans with non-VA medical facilities and 
health professionals for treating mental health illnesses; the 
preferences of a Veteran on available treatments for mental health and 
which they believe to be most effective; the prevalence of prescribing 
prescription drugs within the VA as remedies for treating mental health 
illnesses; and outreach efforts by the VA Secretary on available 
benefits and treatments.
    Additionally, the commission will be tasked with examining the 
available research on complementary alternative treatments for mental 
health and identify what benefits could be attained with the inclusion 
of such treatments for our Veterans seeking care at the VA. Some of 
these alternative therapies include, among others: accelerated 
resolution therapy, caring and training service dogs, music therapy, 
yoga, acupuncture therapy, meditation, and outdoor sports therapy. 
Finally, the commission will study the potential increase in benefit 
claims for mental health issues for Veterans returning from Operation 
Iraqi Freedom, Operation Enduring Freedom, and Operation New Dawn. We 
must ensure that the VA is prepared with the necessary resources and 
infrastructure to handle the increase in those utilizing their earned 
benefits to address the mental and physical ailments incurred from 
military service.
    Once the Commission has successfully completed their duties, a 
final report will be issued and made available outlining its 
recommendations and findings based on their analysis of the patient-
centered survey, alternative treatments and evidence-based therapies. 
The Commission will also be responsible for creating a plan to 
implement those findings in a feasible, timely, and cost effective 
manner.
    I am happy to have the support of the Iraq and Afghanistan Veterans 
of America, the American Legion, and VetsFirst. With the collaboration 
of our nation's greatest heroes, Congress, and the VA, we can increase 
access to quality care for Veterans across the country and help better 
meet their needs when seeking the care they need.
    Thank you for allowing me to testify on behalf of the COVER Act 
today and I urge all of my colleagues to support this important piece 
of legislation and show our Veterans with action, and not just 
promises, that we have them ``covered.''

                                 <F-dash>

              Prepared Statement of Hon. Tim Walz (MN-01)

    In support of H.R. 5059, the Clay Hunt SAV Act.
    Chairman Miller, Ranking Member Michaud, thank you for your 
leadership and dedication to our nation's heroes. I am very grateful 
for the opportunity to tell you about a very important piece of 
legislation to help rid our communities of veteran suicide.
    H.R. 5059, the Clay Hunt Suicide Prevention for American Veterans 
Act, is an example of how we get things right on Capitol Hill. The 
legislation is named in honor of Iraq and Afghanistan War Veteran and 
suicide prevention advocate, Clay Hunt. Clay epitomized what it meant 
to live a life of service, both in and out of uniform. He helped 
countless veterans overcome their demons but tragically took his own 
life in March of 2011. The legacy he left behind, however, will live on 
for generations to come.
    The bill you see before you was the result of strong partnerships 
with our veteran service organizations, strong bipartisanship efforts 
here in Congress, and relentlessness shown by Clay's parents, to get 
this thing done. This bill is what you get when you have folks sitting 
around the table, trusting one another, and working together to get it 
right for our nation's veterans. I'd like to send a special note of 
thanks to two Air Force vets for helping get this thing done. Thanks go 
to Christine Hill from Chairman Miller's staff and Tony DeMarino from 
Ms. Duckworth's staff for their hard work.
    Our premise for this bill was simple: suicide occurs because many 
vets return to their community and then disconnect from it. So, we 
wanted to create a bill that would get the communities involved and 
coordinated. We also knew it would be important to increase the 
capacity and efficiency of VA care to deal with over a million veterans 
returning from war.
    Specifically, the bill:
    1. Establishes a peer support and community outreach pilot program 
to assist transitioning servicemembers with accessing VA mental 
healthcare services.
    2. Requires the VA to create a one-stop, interactive website to 
serve as a centralized source of information regarding all mental 
health services for veterans.
    3. Addresses the shortage of mental healthcare professionals by 
authorizing the VA to conduct a student loan repayment pilot program 
aimed at recruiting and retaining psychiatrists.
    4. Requires the DoD and National Guard to review the staffing 
requirements for Directors of Psychological Health in each state.
    5. Requires a yearly evaluation, conducted by a third party, of all 
mental healthcare and suicide prevention practices and programs at the 
DoD and VA to find out what's working and what's not working and make 
recommendations to improve care.
    6. Establishes a strategic relationship between the VA and the 
National Guard to facilitate a greater continuity of care between the 
National Guard and the VA.
    7. Authorizes a Government Accountability Office (GAO) report on 
the transition of care for PTSD and TBI between the DoD and the VA.
    One veteran lost to suicide is one too many. With many of our 
warriors returning from war, all too often our heroes return only to 
face a war of their own at home. While there is no bill that will 
completely end veteran suicide, this comprehensive, bipartisan measure 
is a step in the right direction. I'm proud to have worked with 
Chairman Miller, Rep. Duckworth, a combat veteran herself, IAVA, and 
the VFW to introduce this bipartisan, important legislation. And I urge 
my colleagues to support this measure so that we can pass it quickly 
into law. Thank you.

            Prepared Statement of Hon. Doug Collins (GA-09)

    Chairman Benishek, Ranking Member Brownley, and distinguished 
members of subcommittee, thank you for the opportunity to testify on 
H.R. 5475, to amend title 38, United States Code, to improve the care 
provided by the Secretary of Veterans Affairs to newborn children. I am 
very appreciative of the Subcommittee's consideration of this 
legislation.
    The motto of the Veterans Administration comes straight from 
Abraham Lincoln's Second Inaugural. He got the idea straight from 
scripture. So the challenge for us to ``care for him who shall have 
borne the battle, and for his widow, and his orphan,'' isn't a new one.
    Since September 11, 2001, more than a quarter of a million women 
have answered the call to serve. They've faced terrorism in the deserts 
and mountains of Iraq and Afghanistan. So in the 21st century, we must 
also consider she who shall have borne the battle.

When she returns, what of her children?

    The finest military in the world is powered by men and women in 
their physical prime. The young women who decide to serve this country 
in the armed forces aren't immune from the same questions that all 
young women face about whether they pursue a career, a family, or both. 
Yet they are offered a healthcare system that for so many years has 
been designed to serve men.
    With the increasing number of female veterans, the VA must expand 
its care and services to meet their needs. Maternity care tops that 
list of needs, and I've offered one way we can help. In 2010, Congress 
passed and the President signed the ``Caregivers and Veterans Omnibus 
Health Services Act of 2010'' to provide short-term newborn care for 
women veterans who received their maternity care through the VA. Signed 
into law on May 5, 2010, this legislation authorized up to seven days 
of newborn care.
    On January 27, 2012, The Department of Veterans Affairs published a 
regulation officially amending VA's medical benefits package to include 
up to seven days of medical care for newborns delivered by female 
Veterans who are receiving VA maternity care benefits. The rule, which 
became effective Dec. 19, applied retroactively to newborn care 
provided to eligible women vets on or after May 5, 2011.
    Since this seven day authorization was enacted by Congress in 2010, 
we've learned more about the unique challenges facing female veterans 
and the changing trends in these veterans seeking maternity and newborn 
care from the VA. According to a study published in the Women's Health 
Issues Journal this year, from 2008-2012 the overall delivery rate by 
female veterans utilizing VA maternity benefits increased by 44 percent 
and a majority of the women using VA maternity benefits had a service-
connected disability.
    Unless Congress extends the authorization for length of newborn 
care coverage provided by the VA, there will be veterans who face 
difficult financial decisions and complexity in navigating insurance 
options at the same time that their newborn is fighting for their life. 
This is why I introduced H.R. 5475. This legislation extends the 
authorization of care from seven days to 14 days and provides for an 
annual report on the number of newborn children who received such 
services during such fiscal year. Improved data on the trends in female 
veterans utilizing newborn care will help Congress and the VA better 
meet their needs in the years to come.
    I know what it's like to be the parent of a little baby who needed 
intensive medical care for an extended period the moment she was born. 
It's my hope that any new mother, who has given selflessly to her 
country, wouldn't have to worry about Congress standing in her way as 
she tries to give selflessly to her own child.
    Our goal should always be to provide the mother with the pre-natal 
care she needs to give her newborn the best chance of a healthy 
delivery with no post-natal complications. There are significant needs 
and challenges that a female veteran faces when returning home from the 
battlefield such as homelessness, sexual and physical abuse, and mental 
health conditions such as Post Traumatic Stress Disorder. And this 
legislation won't solve all of those great challenges. But my hope is 
H.R. 5475 will give her a little peace of mind knowing her newborn will 
get some extra help from the VA and that Congress is committed to her 
and her family.
    In a focus group conducted on Women Veterans' Reproductive Health 
Preferences and Experiences and published by Women's Health Issues 
Journal in 2011, one Marine said, ``I can essentially say that I gave 
my reproductive years to the Marine Corps. And those are the years you 
can serve . . . You know, you do sacrifice and you say, well, ``mission 
first before a family mission,'' type of thing and the more I think 
about I think, you know, the VA probably should address that part of 
womanhood and have that understanding.''
    There are multitudes of ways that the VA must adapt to better meet 
the needs of female veterans. By increasing the authorization of care, 
we can ensure that Congress is not standing in the way of the VA 
seeking to do just that. Absent the legislative change made by H.R. 
5475, the VA cannot provide more than 7 days of care. And I believe 
that is unacceptable.
    In closing, we owe it to our female veterans to expand and improve 
the healthcare services that the VA can provide them and their 
children. Female veterans face unique challenges and barriers, 
including very limited newborn care coverage. While the majority of 
female veterans who receive maternity care from the VA are able to 
return home with their newborn within the current seven day time frame, 
some cannot due to newborn health complications. It is these veterans 
and their children that need Congress' help today.
    Expanding the authorization of care from seven to 14 days will give 
these female veterans more time to make alternate arrangements and 
secure private or public insurance for their newborn's continued health 
needs.
    I thank the Chairman and Ranking Member for holding this hearing 
and I'm happy to discuss this legislation further with any of my 
colleagues. Thank you.

                                 <F-dash>

           Prepared Statement of Hon. John Culberson (TX-07)

    H.R. 5686--Physician Volunteer Ambassadors Helping Veterans.
    I recently had a chance to speak with a top physician from MD 
Anderson in Houston, who was frustrated that she and her talented 
colleagues had been rebuffed several times when offering to volunteer 
their time and expertise at VA hospitals. As Chairman of the Military 
Construction and Veterans Affairs Appropriations Subcommittee I find it 
incredibly troubling that at a time when veterans are forced to go 
outside of the VA healthcare system because of waiting lists and 
staffing shortages or wait months for an appointment, a physician from 
one of the best hospitals in America is told by VA that they do not 
want her free help. Together Dr. Beth Edeiken-Monroe and I decided that 
Congress should cut through the bureaucracy holding up the volunteer 
process for qualified physicians at VA facilities.
    After looking into it, I found that Congress already told VA to 
accept volunteers in its facilities--over two decades ago; it just 
rarely chooses to use this authority. It seems that VA needs more 
guidance as to when Congress expects it to use this valuable resource--
so I crafted legislation that does just that. I spelled out that when 
volunteers are available and willing to help in facilities that are 
strained by appointment waiting times or staffing shortages, VA should 
make every effort to accept their assistance in a prompt manner.
    By accepting the help of more volunteer physicians within VA 
hospitals, we will be able to keep more veterans within the VA 
healthcare system while alleviating some of the pressure on strained 
facilities. This would allow VA to continue its management over the 
quality, consistency, and specificity of more veterans' care. While 
this bill is not intended to solve long-term staffing problems, it 
could be a step in helping more veterans gain prompt access to reliable 
and high quality care within their local VA.
    Through the existing privilege granting process these volunteer 
doctors are covered from medical malpractice liability just as any 
other physician within the VA or Health and Human Services systems is 
covered. I also wanted to be sure that VA received a substantial 
benefit for its effort in granting privileges to these doctors so I 
included a 40 hour minimum volunteer service hours per year 
requirement. We have received an outpouring of support from doctors who 
are excited about this bill and want to volunteer their time with the 
VA.
    I'm thankful for the opportunity to hear about this issue from Dr. 
Edeiken in Houston. This simple idea could potentially help hundreds of 
our veterans get quick access to high quality and reliable healthcare.
    For generations, veterans have shown untold courage and sacrifice 
to ensure that our American way of life can continue long into the 
future. The men and women who have served our country are truly 
American heroes, and it's not surprising that people around the country 
want to help the VA serve our veterans. This is a simple, cost 
effective, community building resource that we should be using to help 
veterans quickly access the high-quality and reliable healthcare within 
the VA system that they have earned.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             FOR THE RECORD

        Prepared Statement Congresswoman Tammy Duckworth (IL-08)

    In support of H.R. 5059, Clay Hunt Suicide Prevention for American 
Veterans Act
    Chairman Miller, Ranking Member Michaud, thank you for your 
leadership and dedicated service to our nation's Veterans. I appreciate 
this opportunity to offer testimony in support of H.R. 5059, the Clay 
Hunt Suicide Prevention for American Veterans Act, which I was proud to 
help introduce with Chairman Jeff Miller and Representative Tim Walz.
    The bill, named after 28-year-old Marine Veteran Clay Hunt, who 
tragically took his own life in March 2011, will provide accountability 
for the mental healthcare and suicide prevention programs that serve 
our nation's service men and women and Veterans.
    After four years of distinguished service in the Marine Corps, 
including earning a Purple Heart for injuries sustained in Iraq, Clay 
Hunt had significant problems accessing the mental healthcare he knew 
he needed. After Clay's service he sought medical care from the VA and 
filed for disability related to Post Traumatic Stress. Clay's mom 
testified before this Committee that while working through this process 
Clay met multiple challenges, including inability to schedule timely 
appointments for care, his files being lost by the VA, and once he was 
finally able to secure an appointment, only receiving prescription 
medication rather than comprehensive care. Clay's appeal for his 
disability claim was approved 18 months after the request was filed and 
five weeks after his death.
    Navigating VA healthcare and benefits systems can be daunting for 
anyone, let alone those who have urgent mental health needs. Clay's 
story highlights the barriers to care Veterans face, but unfortunately 
it is not unique. It is a heartbreaking reality that twenty-two 
Veterans take their own lives each day. Adding to this tragedy is the 
fact that five of these twenty-two Veterans have been in the care of VA 
prior to taking their own lives. These are all casualties of war. As a 
nation, we are failing these brave men and women.
    Currently, there are over 2 million Post 9/11 Veterans across the 
country, and this number will only increase as our military force 
structure continues to draw down. As the nature of war changes, the 
injuries our warriors sustain also change. Increasingly, theirs are 
invisible wounds, which do not have simple treatment and do not always 
manifest immediately.
    Just as these Veterans remained faithful to our country on the 
battlefield, it is our turn as their Representatives to remain faithful 
to them and it is our responsibility as a nation to, in the words of 
Abraham Lincoln, ``care for him who shall have borne the battle, and 
for his widow, and his orphan.''
    This responsibility includes ensuring that when our service men and 
women make the brave decision to seek help, they get the quality 
assistance and treatment they deserve in a timely manner.
    I was proud to work with Chairman Miller and Representative Tim 
Walz on H.R. 5059, the Clay Hunt Suicide Prevention for American 
Veterans Act in an effort to reduce the barriers that prevent our 
Veterans from receiving quality healthcare.
    This legislation will task an independent, third party to annually 
review both the Department of Defense and VA mental healthcare and 
suicide prevention programs to find out what's working and what's not. 
It will also make recommendations on how to improve care. The bill also 
requires VA to create a one-stop, interactive website to serve as a 
centralized source of information for all mental health services for 
Veterans. This bill not only seeks to review and modify current VA 
practices, but also provides the tools to help meet increasing demands 
and focus on future care through provisions that address the shortage 
of mental healthcare professionals. Finally, through a pilot program 
established by this bill, Veterans will receive reintegration 
assistance directly from the communities in which they live, fostering 
a smoother and more inclusive transition to life after the uniform.
    Post 9/11 Veterans step out of their combat boots and into their 
work shoes searching for meaningful employment, access to healthcare, 
and engagement in their communities. As a nation, we have a commitment 
to ensure that they receive the care that they need when they need it.
    Thank you again for the opportunity to offer my testimony. I urge 
all of the Members of this Committee to support this legislation so 
that we can begin to turn the tide against suicide.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
